I

fj-

«■»**

-5797

No.; 21-30098

Supreme Court. U.S.
FILED

AUG 2 5 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

George Verkler
— PETITIONER
(Your Name)
vs.

United States of America

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Ninth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI .

George Verkler
(Your Name)

407 E. Young St.
(Address)

Elma, WA 98541
(City, State, Zip Code)

253-235-1780
(Phone Number)

»

TABLE OF CONTENTS
TABLE OF CONTENTS..................................................

1

QUESTIONS PRESENTED............................................

ii

LIST OF PARTIES.........................................................

m

OPINIONS BELOW........................................................

xv

JURISDICTION...............................................................

.v

FORMA PAUPERIS and AFFIDAVIT OF INDIGENCY.

vrxvi

STATEMENT OF THE CASE.........................................

1-12

REASONS FOR GRANTING THE WRIT.......................

13-39

CONCLUSION.................................................................

40

APPENDEX A Orders.................................... .................

xvirxxxix

APPENDEX B Judgment................................... .............

XXXX'XXXXVl

APPENDEX C TABLE OF AUTHORITIES....................

L-Lxxiv

APPENDEX D CONSTITUTIONAL AND STATUTORY PROVISIONS....Lxxv-Cxxxxn

USA vVerkler 21-30098

QUESTIONS PRESENTED
Does the presumption of innocence and due process mean that if a judge will not
read what a defendant in a criminal case submits to the court, or if the prosecution admits
the Defendant is actually innocent that the judge must rule in favor of the Defendant?
Doesn’t a defendant in a criminal case have the right to assistance of counsel?
How many times does a defendant have to win his case before it sticks?
Doesn’t Mr. Verkler as a defendant in a criminal case have the right to appeal and
attack a completely unconstitutional, illegal, baseless and unjust decision?
Does the U.S. Constitution allow a defendant in a criminal case can be subject to an
infinite excessive amount in fines without court order* be denied an hearing or any due
process or private property taken be taken for public use without just compensation?
Can USA or the court add to a defendant’s sentence without a court proceeding?
Since USA breached the plea contract and refuses to remedy the breach that the
Defendant may rescind the contract and withdraw the guilty plea?
Since when can the court make up any standard it wants to commit a crime against
a person or make such a law against 1 person contrary to Supreme Law?
Doesn’t a US citizen have any protection under the Constitution and Laws?
Is there anything that makes a plea involuntary?
Isn’t it true that there is nothing in the U.S. Constitution or Federal Law that gives
the government or anyone in the government authority to attempt or commit a crime, a
tort, conspire or lie against an American?
USA v Verkler 21-30098
USA v Verkler 21-30098

ii

LIST OF PARTIES

(XI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

m
USA vVerkler 21-30098

»

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

JKI For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ^__to
the petition and is
[ ] reported at
jor, .
[ ] has been designated for publication but is not yet reported; or,
PQ is unpublished.
The opinion of the United States district court appears at Appendix $ - to
the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
;or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
court
appears at Appendix
to the petition and is
[ ] reported at____
;or,
[ \ has been designated for publication but is not yet reported; or,
[ ] is unpublished.

USA v Verkler 21-30098

IV

l

JURISDICTION

P<| For cases from federal courts:
The date on which the United States Court of Appeals decided my case
WitM 05/3-9/21____________ 06/10/21

E ] No petition for rehearing was timely filed in my case.
Kf A timely petition for rehearing was denied by the United States Court of
AppealB on the following date: J5/6/21 .___,__
, „and a copy of the
ojxtfflf denying rehearing appears at No ruling before "mandate"
[ ] An extension of toe to file (he petition for a writ of certiorari was granted
to and including_____
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. S 1264(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
( ] A timely petition for rehearing was thereafter denied on the following date:
arid a copy of the order denying rehearing
appears at Appendix
C 3 An extension of time to file the petition for a writ of certiorari was granted
to and including___
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. g 1257(a).

USA vVerlder 21-30098

V

STATEMENT OF THE CASE

Multiple official representatives of USA made a written legally binding official
. admission to the Ninth Circuit Court of Appeals:
1) US agents brutally beat up and gang raped Mr. Verkler’s fiancee during the xmas holiday
of 1995 (Exhibit P p6,10,143-4,150,158) violating the Preamble, beginning attacks by USA.
2) on 7/12/12 a member of the government attempted to murder Mr. Verkler (Exhibits: p
p 143-4,151,159, AW) in violation of the Preamble and RCW 9A;
3) USA and the courts repeatedly engaged in a scheme or artifice to defraud for obtaining
money or property by means of false or fraudulent pretenses, representations, to deny Mr.
Verkler credit for amounts collected in violation of the Preamble, Fifth Amendment, 15
USC 875, 1692d, I692e, 1692g, 1692h, 18 USC 1341, 1346, 42 USC 2000h-l, FRCrP 2.
4) the prosecution of Mr. Verkler was because when FBI Director Robert Mueller tried to
extort money from Mr. Verkler in violation of the Preamble, 18 USC 872, 876(b)(c) Mr.
Verkler refused to pay. And in this case his threats are carried out (Exhibits: p
pl0,85,134,143-4,149-50, Q pl4, V) in violation of 18 USC 875, 1959, FRCrP 2;
5) the federal district court did not have subject matter or territorial jurisdiction in this
case, USA also made several stipulations to this (Exhibit P p75,77-9,81-4, 92,130-2,1423,149,158-61,163,170,176-8). The courts violate FRCrP 2 with their unjust decisions;
6) USA did not have standing, USA also made several stipulations to this Exhibit P
pl0,80,85,86,125-136,149,158,161,170-1). The courts violate FRCrP 2 with their decisions!
7) on Oct. ’14 Mr. Verkler was the victim of armed robbery and kidnapping, in violation of
the Preamble, 4th Amendment, 18 USC 1959, FRCP2, 4 and RCW 9A.40 and 9A.50 based
on unfiled counterfeit: complaint, counterfeit warrants with forged signatures of a former
1
USA v Verkler 21-30098

judge and no marshal (Exhibits P p 10-12,17,25,36,50,89,108, 139,144-5,150-1,159,1678,175,179, AE, AL, AR, AU). Coughenour joined this criminal conspiracy in violation in 18
USC 3, 371, 1201, 1341, 1346, 1349, 1361, 1506, 1512, 1589, 1959, 1961, 1962, 2071, and
2113. No one can dispute federal agents took all of Mr. Verkler’s cash, gold and silver
(Exhibits: E, P pl0-2,25,32,36,50, 89,108,139,144-5,150-1,159,167-8,175,179, AF, AL, AM,
AR, AU). There was not a proper search and seizure and inventory per FRCP4T- FRCrP3
requires a complaint to state the essential facts and be made under oath but the Oct 14,
2014 complaint was not made under oath and all claims of facts were refuted. There was
no establishment of probable cause to issue a warrant at that or any later time. USA
stipulated that Andrew Frederick Harbison bora 1974 of 2114 E Marin St, Seattle WA
98122-4842, Latitude 47.6102, Longitude -122.3043, opened the unemployment claim with
IP address 63.225.190.120, Provider Centurylink, Hostname 63.225.190.120. He was bom
in 1974, his driver’s license was renewed 11/11. On 4/21/21 www.whitepages.com it says
there is an Andrew F. Harbison in Seattle age 46 with a criminal record. The entire
operation was conducted illegally (Exhibits: H, P p 6-61,64-5,67-71,73,75-98,100-121,123136,138-179,180-3,190, Q p!4, V, AF, AH, AL, AM. AR, AT, AU, AY);
8) Mr. Verkler was not brought before a judge on a counterfeit 10/14/14 complaint and
counterfeit warrants in violation of FRCP 5 and 18 USC 1506. Failure to provide a
transcript is grounds for reversal of a conviction. Mr. Verkler proved the entire first case
based on that case was a false docket (Exhibits: P plO-2,14,20,31,37*9,52,144-6,150* 1,168,
175,179 AF, AL, AR, AY). [Attorney Gregory Charles Link denied the existence of the
10/14/14 complaint in his 2/11/16 filing p 1 (Exhibit AY). Coughenour denied that there
was such a complaint (which means the docket never got started and never existed)]. Mr.
Verkler was denied bail in violation of the 8th Amendment and 18 USC 3041, 3142»
2

USA v Verkler 21-30098

9) In violation of 18 USC 1506 the court made false entries on 10/16/14-10/22/14 (Exhibits:
P pll-12,31,144-5,150, Q, AF, AD Defendant’s attorney violated 18 USC 3006A;
10) On 11/4/14 USA made a second set of accusations against Mr. Verkler and holding him
in cu stody starting the Speedy Trial Act, countdown (Exhibits: K, L, P pT5,37,146, X). In
the information USA stipulated at least 6 times Mr. Verkler was allegedly filing State
weekly unemployment claims to that date. It is impossible for Mr. Verkler to file those
nlamifl white in custody 3 weeks non-stop. FRCP 5(c)(3)(A)(B)(C)(d)(l)(A)(B)(C)(D)(E)(3)
were all violated. The information and plea agreement only states there would be forfeiture
of $14,652.55 seized from Mr. Verkler not that that was all the currency seized;
11) USA refused to provide all required discovery per FRCP 16 and no judge would order it.
12) No defense lawyer would interview any witnesses, violating 18 USC 3006A(d) (4) (B) >
13) Mr. Verkler filed Habeas Corpus on 1/16/15 after being illegally incarcerated over 90 days
violating 18 USC 3164 (Exhibits: H, P p 15,18,150-1,159, Q p22). USA stipulated they
deliberately and knowingly violated the Speedy Trial Act (Exhibits: P pl5-16,37-8, X). [Mr.
Verkler later learned Judge Jones dismissed the matter with prejudice on 2/2/15 (Exhibits- P
pl74, AH) that prohibits prosecution, US v Clvmer. 831-833; US v Miller, 194, 198, 199>
Commonwealth v Cronk. 198, 210 the court stole the record in violation of 18 USC 1506, 20711;
14) On 2/3/15 USA made a second Motion to Dismiss. On 2/3/15 multiple official
representatives of USA also made a written legally binding stipulation to the District court
that before 1/8/15 USA made accusations that Mr. Verkler committed crimes without any
basis for the accusations and held Mr. Verkler in custody from that date [1174/14] (the
1/8/15 discovery conference did not yield any evidence against Mr. Verkler and did not
provide copies of everything taken from his home) (Exhibits: K pTO-1,17, P p 12,15*
6,145,179) that starts the Speedy Trial Act 18 USC 3161, countdown, US v Marion, 320>
3
USA v Verkler 21-30098

15) the 2/4/15 complaint contained no incriminating facts, USA stipulated at least 3 times
Mr. Verkler was allegedly filing State weekly unemployment claims to that date. It is
impossible for Mr. Verkler to file those claims while in custody 15 weeks non-stop;
(Exhibits: G, P 512-3,17,21-2,101,121) and was not made under oath but Coughenour
illegally allowed prosecution of Mr. Verkler to proceed in violation of FRCrP 3 (Exhibit: G)
16) FRCP 4, 41 were violated by the court, there was not an arrest warrant nor an arrest in
February, the court allowed USA to continue to keep Mr. Verkler imprisoned even after Mr.
Verkler won his case several times (Exhibits: H, K, P pl-8,12-13,15,16,18,21-2,57,59,88,93"
4,103-5,107-21,123-36,138-141,146-7,151,173-4,176, AB, AC, AD, AH). Violating Rule 4
means the judge did not establish that Mr. Verkler was charged with a felony;
17) The courts violated every part of FRCrP 5 by not having an initial appearance for the
second set of charges. Instead, his court falsified the docket for 2/4/15 and 2/5/15 in
violation of 18 USC 1506. Attorney Leonard was dismissed, he stipulated that he lied to
Mr. Verkler and refused to defend him and actively worked against him. The court illegally
refuses to provide the required transcript so there is no evidence Rule 5 was obeyed.
Failure to provide a transcript is grounds for reversal of a conviction. (In the Detention
Center Mr. Verkler was told that if he paid $2,500 that he could get his case dismissed.)
18) the 2/10/15 detention order is false violating 18 USC 1506, 3006A (Exhibit P pl45, Q);
19) 2/12/15 is the day attorney Shaw claimed to file a Motion to Suppress the Arrest
Warrant and the Search and Seizure Warrant (Exhibit Q p4,10,24,30,34,45,56,57, 60,63-4).
(After Mr. Verkler included that it was filed that day in the Background of filings made on
4/22/15, 8/11/15, 8/25/15 and 2/19/16. These filings confirm the filing of the motion to
suppress with no claim by USA or the court that it was not filed. Yet the court later Red to
claim it was not filed, the court must have deleted it). USA filed Motion to Dismiss, [Mr.
4

USA v Verkler 21-30098

Verkler learned Judge Donohue dismissed the matter with prejudice that prohibits
prosecution, US v Clvmer. 831-833; US v Miller. 194, 198, 199; Commonwealth v Cronk,
198, the court stole those records in violation of 18 USC 1506, 18 USC 2071];
20) the false docket claims joint motion to continue by USA on 2/18/15 violating 18 USC
1506 and 18 USC 3006A, but Mr. Verkler never agreed to any continuance. It is ridiculous
to make such a claim after Mr. Verkler filed an habeas corpus and he could not lose.
21) Even though Verkler won his case 5 times (Exhibit P p3-8,15-6,18,21-2,57,59,88,93-4,
103-5,107-21,123-136,138-141,144,146-7,151,173-4,176, BD p5,16-7,26-7), Verkler was not
yet arraigned so the conviction must be voided, Mallory v US. 453, sum; Upshaw v US, 413,
[Mr. Verkler later found that on 2/19/15 the court found Mr. Verkler guilty and pronounced
sentence violating FRCP 11 & 49 (Exhibit AR) without Mr. Verkler being charged (Exhibit
J Info); without any evidence against him (Exhibit P pll-13,17-19,21,35,46,100-1,104,143,
145,147,149,151, 164); without an hearing violating Article III Section 2, 18 USC 1201,
3006A, FRCrP 2, 11; after he had the matter dismissed with prejudice twice (Exhibits: H,
AH)]; was found not guilty 3 times by adjudication on the merits FRCP 41 (Exhibit K)
(Exhibit P p27,147,157,165); without a trial, [or a guilty plea], a nolo contender plea; where
it was impossible to convict him because he was a victim of indefinite detainment, many
due process violations; and more. In the information USA stipulated at least 6 times Mr.
Verkler was allegedly filing State weekly unemployment claims to that date. It is
impossible for Mr. Verkler to file those claims while in custody 18 weeks non-stop;
(Exhibits: G p2,1 p2,3,14,16, J p2,3,14,16, P p21,22, BD p6,18,26,27, Supplemental Reply
Brief p3). This stipulation to the alleged crime proves his innocence. The information and
plea agreement only states there would be forfeiture of $14,652.55 seized from Mr. Verkler
not that that was all the currency seized; Mr. Verkler was not indicted. The information
cited no evidence against Mr. Verkler and did not state the elements which is essential
USA v Verkler 21-30098

5

FRCrP 7(a)(c)l US v Cruikshank, 5585 ITS v Simmons. 362, US v CarlL 6125 US v Hess. 4875
Pettibone v US. 202-45 Blitz v US. 3155 Kick v US. 4375 Morissett v US. 270, note 305 USv
Petrillo. 10, 115 US v Smith. 346*75 Russell v US. 763*6, note 135 US v Lamont5 Meer v US5
Babb v US5 US v Debrow. 377-85 Wilson v US5 Cochran & Savre v US. 2905 Hagner v US.
4315 Potter v US. 4455 Bartell v US. 4315 Berger v US. 825 Rosen v US. 345 US v Cook. 1745
Wong Tai v US. 80*15 Evans v US. 587*85 US v Hess. 4875 US v Achtner. 515 US v London.
211, Dunbar v US. 190*25 US v King. 9635 Batchelor v US. 4315 Nelson v US5 US v Root? US
v Britton. 661, 6695 US v Northwav, 332, 3345 no count stated a crime, US v Welch. 6*8, also
“convert... gave no indication of the criminal intent necessary”, US v Morrison. 288,
overview, outcome?. USA never provided a witness statement per FRCrP 5.1(h).
22) 2/20/15 USA stipulated FRCP 41 applies to this case, “'any’ has a comprehensive
meaning of "all or every." Kalmhach. Inc, v. Ins. Co. of State of Penns. 556. One docket
reports case dismissed, but falsely reports several negative things (Exhibits- P pl45, AF, AL)
violating 18 USC 1506, on 2/20/15 Mr. Verkler was forced to plead guilty to save his little
underage children from being kidnapped and killed by USA, to avoid lifetime imprisonment
and other threats and attorney Shaw’s refusal to defend Mr. Verkler (Exhibits: Pp 19-20,2829,34,37,52*55,67,89-91,94,106-7,129,143,147,149-50,164-6,181, AR). Mr. Verkler might still
be in prison had he not plead guilty, Davis v St of NC. 752-3. Coughenour knew about the
threats against the children and the illegal, unconstitutional indefinite detainment and Mr.
Verifier’s victories by twice having the matter dismissed with prejudice and adjudicated on
the merits and joined in the conspiracy on 3/10/15 if not sooner (Exhibit P p3*8,15-6,18,212,45,57,59,88,93-4,103-5,107-121,123-36,138-141,141,146-7,151,176-4,176, BD p5,16-7,26-7)5
Mr. Verkler was told the he was pleading to misdemeanors, his attorneys had several basis
to make that claim, but the judge put the judgments as felony convictions. That is not the
first time a judge has committed such a violation US v Harris. 89, 91-25 McNabb v US. 340,
USA v Verkler 21-30098

6

345. The magistrate did not have any reason to believe the crime was committed or that Mr.
Verkler committed it, Bvrnes v US. ?, 829, 833 and violating the Preamble, FRCrP 2\
23) because Mr. Verkler’s attorney refused to assist (Exhibits: P pl2,21,31-47,52, 55-61,8895,100-1,109,115,142-3,145-6,149,151,154-5,160-1,165,172-8,180-3, Y,AX), on 4/22/15 Mr.
Verkler filed a motion to get relief from illegal prison conditions including an attempt by
USA to execute a death penalty (first degree murder) without a court order violating 18
USC 1512, and RCW 9A.28.020 (Exhibits: P pl43-4,151,159, AW). Coughenour chose to
commit the felonies: accessory after the fact, misprision of felony, and entered into the
criminal conspiracy in violation of 18 USC 3, 4, 371, US v Benefield, with Mr. Verkler’s
attorney and USA’s BOP. Coughenour illegally sealed Mr. Verkler’s motion on 5/8/15 to
conceal the truth and take a major part of destroying evidence in violation of 18 USC 1506,
18 USC 2071. Misprision does not require benefit to the principatl Robes-Urrea v Holder.
24) on 5/8/15 the docket finally records one of Mr. Verkler’s requests for court records
stating it was sealed. On 6/5/15 the docket records it being sealed. Mr. Verkler did not
authorize it to be sealed, Coughenour did not have authority to seal it, violating 18 USC
1346. The court refused to provide the records like they did not exist. Actually Mr. Verkler
requested transcripts and dockets on 3/30/15, 4/14/15, 5/30/15, and 3/3/16. The following
docket entries: #26 & #27 were stolen in violation of 18 USC 1506 and 18 USC 2071.
25) on 8/4/15 Coughenour prepared a preliminary and final order of forfeiture which
included the most valuable computer, the iMac, which was not in the plea contract and
would have gone a long way to honoring the plea agreements to provide promised files. His
order did not state the amount of money seized from Mr. Verkler, only that $14,652.55 of
the money shall be forfeit. Shaw betrayed Mr. Verkler by not presenting any evidence,

USA v Verkler 21-30098

7

Laws, constitutional and precedents he supplied her and not making most arguments he
provided, such as Mr. Verkler’s inventory of currency of $153,892.55 (Exhibit E).
26) on 8/12/15 Coughenour added restitution to the sentencing although the State already
did. Mr. Verkler’s so-called attorney Shaw learned the BOP thought Mr. Verkler was
sentenced to 2-years so she filed to get the judge to change the sentence to make it a 4-year
sentence. Mr. Verkler’s attorneys were all perfidious, treasonous, against him (Exhibits: P
p 10,25,34,41-7,55-61,89,94,109,115,120,142-5,146-7,151-5,167-8,171,178, AX, AY).
27) 8/13/15 a docket reports motions filed. The motions included relieve from prison
conditions including attempted murder, assault, battery, denying access to legal materials
and his attorney, transcripts, theft of legal materials, prescribed drugs. The court altered
the order of the filings (Exhibit Q) to deny justice by putting dismissal of attorney last
instead of first so Coughenour could he and say Mr. Verkler had no access to the court,
Coughenour refused to dismiss ineffective counsel based on lies, He denied that the court
had jurisdiction lied about filing dates to deny Summary Judgment.
28) On 1/26/16 Link arranged his first and only call with his client. He never visited Mr.
Verkler, nor got discovery or transcripts and ignored what Mr. Verkler sent him.
29) 2/9/16 Coughenour issued a final order of forfeiture. He stated the currency as
$14,652.55 although he was informed of a dispute prior to the change of plea and in
Objection, Correction and Suggested Edits to Draft PSR of June 23, 2015, par 7, 10, 84, he
did not hold a hearing. He listed assorted gold and silver colored coins. It makes him an
accessory to the theft of the minted gold and silver coins. The coins were never inventoried
as required by FRCrP 41 (Exhibit E) to say exactly what coins there were, These facts are
undisputed and the opposing party bound themselves to agree these facts are true.

USA v Verkler 21-30098

Coughenour had no authority to change the coins status to nearly worthless trinkets. In
item 23 he says CD's 2 of them were Master of Orion 2 game discs which were to be
returned to Mr. Verkler (Exhibit J). He lists item 26 as 1 Macintosh computer which was
not in the plea agreement that the Defendant had to be forfeited (Exhibit J). Coughenour
based his Final Order of Forfeiture on laws that cannot apply and violating 18 USC 1346;
30) on 2/19/16 Mr. Verkler dismissed appellate attorney Gregory Charles link;
31) 3/21/16 Mr. Link retaliated by filing an invalid, illegal phony lying “anders” brief;
32) 11/17/16 Coughenour lowered the amount that Mr. Verkler was to receive credit towards
restitution contrary to his 9/15/15 decision, violating 18 USC 643, 645, 648, 1346, FRCP 2;
33) on 2/24/17 Mr. Verkler filed a motion for relief from the BOP committing attempted
murder, assault, battery, not to put him in the SHU to deny him access to the law library,
to have free attorney phone available, to release him on time, to return seized legal papers
and make no more seizures, and suppress the Information, the court refused to respond;
34) the court refused to respond Mr. Verkler filed a motion to proceed on 4/14/17;
35) on 6/14/17 judge Brian A. Tsuchida on page 3 stated that in dkt 38 he stated that Mr.
Verkler moved to set aside counts 1 and 2 because they were dismissed. Is this a freudian
slip based upon his knowledge that FRCP 41 established Mr. Verkler was not guilty by
adjudication on the merits or that the counts were dismissed with prejudice?
36) 7/6/17 Coughenour denied jurisdiction and lied to illegally ruled against Mr. Verkler’s
motion to recognize Verkler won his case 3 times, found not guilty by adjudication on the
merits per FRCP 41 and continued to hold Mr. Verkler in prison violating of 18 USC 1201;
37) on 8/8/17 Mr. Verkler filed a motion for legal counsel for a 28 USC 2255;

USA v Verkler 21-30098

9

38) 11/07 Coughenour denied jurisdiction for Verkler's motion for mandamus for the public
defender to provide known copies of records of Mr. Verkler’s file that were stolen by USA>
39) 11/8/17 because the court refused to grant summary judgment for prison conditions Mr.
Verkler filed notice of appeal. The court refused to appoint legal counsel or to consider it;
40) In 12/08/17 Mr. Verkler filed habeas corpus under 28 USC 2255;
41) USA did not send its response to Petitioner, by the deadline of 1/2/18 per 28 USC 2243.
Coughenour said it was due 4/16/18 but served 4/24/18 (Exhibit AO), but stolen 5/4/18
(Exhibit AN). The court does not have a copy (Exhibit AF). There was no hearing;
42) On 1/29/18 Coughenour illegally denied 14 legal grounds to vacate and set aside the
judgment based on nothing. Since Coughenour denied Mr. Verkler legal counsel
Coughenour had no right or authority to make any ruling against him, Frazer v US;
Johnson v Zerbst, 464-465. Coughenour even denied the ground of cumulative error while
stating he could not decide on 5 grounds until USA responded. Since cumulative error
means if the petitioner established 2 or more grounds for relief but each violation by itself
was not serious enough to grant relief, then the cumulative effect could be enough to grant
relief. It was impossible to truthfully rule against cumulative error. Coughenour exposed
that he never had any intention of allowing relief to Mr. Verkler no matter what;
43) 3/1 Coughenour ruled against Mr. Verkler's FRCrP 41(g) motion to be able to receive
money that was illegally seized, but not inventoried (violating 18 USC 643, 645, 646, 648,
FRCrP 41(f)(1)(C)), and was not abandoned or forfeited. He denied jurisdiction and lied;
44) on 3/3/18 Mr. Verkler filed a Supplement to his 28 USC 2255 habeas corpus, USA did
not respond, no judge ruled on it. Mr. Verkler had to be granted relief per FRCrP 55, 56;
45) On 3/22/18 Coughenour denied a motion to re-file documents lost by the court;
10

46) On 4/16/18 Coughenour denied a motion to find public defenders in contempt of court
for failing to provide Mr. Verkler a complete copy of Mr. Verkler's case file per FRCP 16;
47) before 4/30/18 Mr. Verkler filed for summary judgment for his 28 USC 2255 habeas
corpus, USA did not respond. Mr. Verkler had to be granted relief per FRCrP 55, 56;
48) on 3/5/19 Mr. Verkler filed objections for his 28 USC 2255 habeas corpus, USA did not
respond, no judge ruled on it. Mr. Verkler had to be granted relief per FRCrP 55, 56;
49) before 3/11/19 Mr. Verkler filed a second supplement to his 28 USC 2255 habeas corpus,
USA didn’t respond, no judge ruled on it. Mr. Verkler to be granted relief per FRCP 55, 56;
50) on 4/27/19 Mr. Verkler filed second objections for his 28 USC 2255 habeas corpus, USA
did not respond, no judge ruled on it. Mr. Verkler had to be granted relief per FRCP 55, 56;
51) on 3/24/20 Mr. Verkler filed a notice of default judgment for his 28 USC 2255 habeas
corpus, USA did not respond so they admit, assent and agree Mr. Verkler is right. Mr.
Verkler had to be granted relief per FRCrP 55, 56, and 18 USC 1346;
Beyond USA’s official legally binding written admissions on appeal52) Coughenour denied the Notice of Default Judgment for the habeas corpus still not
having a response from USA, violating FRCrP 55 and 18 USC 1346. There was no hearing;
53) on 6/13/20 Mr. Verkler filed a notice of appeal to the district and circuit courts per
FRAP 3, 4 because his 28 USC 2255 habeas corpus Notice of Default Judgment was denied
in violation of the US Constitution, Supreme Law, court opinions based on nothing;
54) The docket records on 6/18/20 “Date Rec’d COA”.
55) On 8/17/20 USA stipulated that weekly State unemployment claims were filed in States
which was impossible for him to do while Mr. Verkler was in custody proving no standing;
Ujn V VCI MCI 41-JWU30

11

56) 8/24/2020 Coughenour denied having jurisdiction to consider Mr. Verkler’s objections.
57) On 9/20/20 Mr. Verkler filed an Opening Brief for 20-35559 for his 28 USC 2255 habeas
corpus, The court violated FRCP 44. USA did not respond so USA admitted to everything;
58) on 1/19/21 Verkler filed for counsel, the court denied Verkler’s right to legal counsel;
59) panel lied to deny Mr. Verkler’s right to legal counsel violating 18 USC 3006A, FRCP 44;
60) 1/29/21 initial hearing, attorney refused to contest anything. Sometime after the
hearing attorney stated it was already decided that the judge would rule against me no
matter what the evidence or Law said. Violating 18 USC 1346, Great Western Mining and
Material Co v Fox Rothschild LLP; Nesses v Shepard. 1005; Marshall v Jerico. Inc.. 242.
By that time USA and the courts already collected $153,192.55 in cash, $145,835,172.42 in
gold and silver, $27,714.84 in other assets just in this case. They collected too much before.
61) on 2/9/21 2 judges denied the right of appeal for 20-35559 violating FRAP 3, 4;
62) on 2/18/21 filed a Petition for Rehearing for 20-35559;
63) 3/2 Mr. Verkler filed (see FRCP 49) to dismiss attorney Thomas Coe for refusing to
work on Mr. Verkler’s behalf and plotting to find Mr. Verkler guilty in the 2015 case and
Mr. Verkler filed to get subpoenas for several adverse witnesses per 18 USC 3006A.
64) 3/5/21 2 judges stated they will not entertain filings in 20*35559, violating FRCP 44;
65) on 3/19/21, 1:28 PM Paula at the court house stated Coughenour refused to allow the
attorney dismal and subpoena motions to be docketed violating 18 USC 1506 and 2071;
66) 3/24 Paula at the court said my motion for discovery was received but not docketed
violating FRCrP 49. So, they were stolen in violation of 18 USC 1506 and 18 USC 2071.
67) 3/31 no one told Verkler the court would find Verkler guilty or it was still considered.

USA v Verkler 21-30098

12

REASONS FOR GRANTING THE PETITION
US Ninth Circuit court of appeals has entered a decision in conflict with the decision
of another United States court of appeals and the Supreme Court on the same important
matter; and has so far departed from the accepted and usual course of judicial proceedings,
and sanctioned such a departure by a lower court, as to call for an exercise of this Court's
supervisory power, US Ninth Circuit court of appeals has decided an important question of
federal law that has not been, but should he, settled by this Court, and has decided an
important federal question in a way that conflicts with relevant decisions of this Court.
The proceeding involves one or more questions of exceptional importance, each of
which, must be concisely stated the panel decision violates^ l) due process and threatens to
destroy due process for any case any district judge or any circuit panel of judges wherein
they wants to violate due process; 2) the constitutional and legal right to assistance of legal
counsel; 3) the constitutional and legal protection against double jeopardy; 4) the
constitutional and legal right to an appeal; 5) to have an impartial judge; 6) the
constitutional and legal right to an hearing; 7) the right of a victim to rescind a contract
when the other party commits breach of contract) 8) its obligation to obey the Constitution
and Law and not abuse discretion; 9) the constitutional and legal protection against the
cruel and unusual punishment of infinite fines for a non-violent crime amounting to less
than $260,000, 10) the right to a Speedy Trial) 11) the constitutional and legal right of
every person to claim protection of the Constitution and the laws; 12) the panel decision
violates the truth that the government or member of it has no right or authority under the
Constitution or the Law to commit- crimes, torts, conspire or lie against an American.
The right to due process has been trampled upon and needs a boost. “Due Process
Clause prohibits punishment of person prior to judgment of conviction...” Villanueva v
USA vVerkler 21-30098

13

George. USA and the court punished Mr. Verkler prior to judgment by holding him in
prison without pre-trial release, 18 USC 3041, 3142, after the case was dismissed and he
won his case, FRCP 41, Commonwealth v Cronk. 210, and after the court was absolutely
obligated to release him for being in custody 90 days without the beginning of trial, 18 USC
3164, and not giving credit for time served, 18 USC 3586 and illegally extending probation.
The courts were wrong to steal filings made with the court per 18 USC 1506 & 2071, FRCrP
49(b)(5). In this case by the sentence and law Mr. Verkler was no longer on probation when
accused of a probation violation. Also, Coughenour repeatedly ruled he had no jurisdiction
when a case was on appeal, but here although the case was on appeal he decided to proceed
and found Mr. Verkler guilty without any evidence and without jurisdiction even after USA
agreed not to seek a conviction and agreed to end the probation.
In regards to US v King, 891 F.3d 868 (9th Cir 2018) it supports Mr. George Verkler’s
right to appeal. There are still “ongoing collateral consequences caused by” the court’s
decision they still claim money owed and the right to practice eliminating credit for
amounts collected (Exhibits: S, T, U, AM, AU, BA, ca.se no: 20-30161: 1A, IB, 1C, ID, IE,
IF, 1G, 1H) and / or to steal amounts collected and steal the court records (Exhibits: H, Q,
AH, AN, AP). To the end that they would make Mr. George Verkler pay an infinite amount
of money. The I&ngcase says in “Spencer the court 'was willing to presume that a
wrongful criminal conviction has continuing collateral consequences.’” The court need to
reverse the unconstitutional and illegal finding of a probation violation and rule that Mr.
George Verkler not only paid the full amount ordered by the court, but that USA and the
court collected multiple times the amount it ordered Mr. George Verkler to pay. And Mr.
George Verkler won the underlying case so the conviction and sentence must be set aside
and vacated Exhibits: H, K, AH). Also, the never-ending demand from USA and the court
for more and more money and the refusal to refund the excess collected and the false
USA v Verkler 21-30098

14

reporting of a huge unpaid late debt does cause civil disabilities “in employment [because
employers check FICA scores and credit history], future parole decisions [because a parole
violation can be used as a basis to impose additional prison time in the next trumped-up set
of phony charges and the next trumped up phony claim of a probation violation.]
Mr. George Verkler did “show his [adverse court decision] is causing 'some concrete
and continuing injury other than the now-ended incarnation. “In other words [the court’s
adverse illegal decision] causes collateral consequences to state an injury-in-fact”. Mr.
George Verkler’s consequences are not speculation, they are based on undisputed best
evidence.” The court can still provide relief by- a) vacating the finding of conviction of a
probation violation; b) recognizing all amounts collected for restitution that have been
collected and order the refunding to Mr. George Verkler of all the excess collected, since the
court illegally and unconstitutionally found Mr. George Verkler guilty of not paying;
c) since the district court did not have jurisdiction to find Mr. George Verkler guilty of the
underlying accusations or violation and USA did not have standing to prosecute the
underlying accusations (Exhibits^ P, V) or violation (Exhibit AK) and Mr. George Verkler
had ineffective counsel in district court and 20*30097 and no counsel for his habeas corpus
under 28 USC 2255, it’s objections, summary judgment, default judgment, 15-30244, 1630001, 17-30237, 18-30073, 20-30161 and 20*35559 and USA did not Answer or Respond
and the record conclusively shows it is impossible for Mr. George Verkler’s guilty plea to be
voluntary or knowing and Mr. George Verkler won because of USA’s deliberate and
knowingly made Speedy Trial Act violations (Exhibit P, X) and Mr. George Verkler was
found not guilty by adjudication on the merits and judge’s orders to dismiss the matters
with prejudice and probation was over before Mr. George Verkler was accused of the
probation violation and the use of forged signatures on the plea agreement (Exhibit AI) and

USA v Verkler 21-30098

15

other documents and finding of guilt and sentencing Mr. George Verifier (Exhibit AB)
without a plea, a trial, charges, any evidence, or an hearing.
The panel cites Chafin v Chafin, 568 US 165,172 (2013). In this case the court
selected the Supreme Court ruled there was a case or controversy so it was not moot. There
is controversy because the judge’s finding of guilt creates the threat of harm of more prison
time in the future and the refusal of the courts and USA to give credit for amounts collected
and their continued collection of fines forever. The Chafin case says a case is not moot
because there is still a stake in the outcome of the case. Mr. Verifier continues to have a
stake in the outcome. In the Chafin case the Supreme Court ruled there was relief that
could stall be granted. In Mr. Verifier’s case the court can still grant relief to set aside and
vacate the finding of guilt that will harm Mr. Verifier. The court can still rule that Mr.
Verkler was not guilty because he was never legally convicted of the felony crimes, the
court can rule Mr. Verkler is not guilty of the violation of not paying what the court ordered
because he did not fail to pay restitution, USA and the court collected multiple times the
amount the court ordered and must return the excess. The court can still remedy USA’s
breach of contract by providing Mr. Verkler everything USA took from him that was not to
be abandoned or forfeited and copies of those things, Santobello v NY. 2631 Kingsley v US.
Mr. Verkler did not appeal the revocation of supervised release. Mr. Verkler
appealed the finding of guilt of a probation violation that could not have happened at any
time, and allegedly took place after it was illegal to claim Mr. Verkler was still on
probation, and the district court did not have jurisdiction based on all the other district
court rulings the Ninth Circuit agreed with based on the claim that once Mr. Verifier
appealed a decision the district court did not have jurisdiction the jurisdiction was
transferred to the circuit court (2014 case diet 2 & 2015 case dkt 44 & dkt 49 denying 6
motions filed before filing of a notice of appeal because the case was on appeal, dkt 88
USA v Verkler 21-30098

16

dismissing motion because the case was on appeal, diet 95 denying motion for discovery, diet
105 dismissing motion for return of property, diet 143 deny motion, dkt 148 deny rebuttal of
illegal probation ruling and request for impartial judge.
Concerning the 4/13/21 Notice of Appeal, the 4/19/21 Response to Circui t Court
Claim of Moot, the /Disease, the Ghafi.'n case - it is clear that the judges either 1) did not
read them, 2) lied about what they said, 3) were so retarded they got them completely
wrong. Problems 1) and 2) indicate the judges decided to become accessories, to aid and
abet to join as conspirators to a criminal RICO enterprise consisting of most of the US
District Court for the Western District of Washington, and for the US District Court for the
Central District of California and all the Ninth Circuit Court of Appeals. The best way to
provide evidence of innocence is to rule in favor on Mr. Verkler. You judges should be
aware these rulings do not create the respect you want.
9th Cir. R. 27*9.1 proves that counsel cannot dismiss and appeal without consent of
the appellant’s written consent, which proves Greg Link could not dismiss Mr. George
Verkler's 15*30244 case weather he filed it before or after Mr. George Verkler dismissed
him because Mr. George Verkler never consented and proved Link's filing was
unconstitutional, illegal, baseless and contrary to the truth and the record conclusively
proved beyond any reasonable doubt that Mr. George Verkler is entitled to his requested
relief. The circuit court refused to provide its rules when Mr. George Verkler was in
custody and the prison library did not have the 9th Cir court rules so Mr. George Verkler did
not have to tell the court its own rules to have his rights respected.
Mr. Verkler was not notified that the court would conspire to impose additional
penalties without due process of law and the court would reject the plea agreement and did
not inform Mr. Verkler the court was not required to follow the plea agreement so Mr.
Verkler withdrew the plea per violation of FRCrP 11. The court and USA have violated the
USA v Verkler 21-30098

17

5th Amendment by imposing punishments without charges, a trial, a guilty plea or a nolo
contendere plea, or evidence all without a court order and without due process of law
(Exhibit AR) that he was not sentenced to endure: i) kidnapping; 2) punishing Mr. Verkler
twice with an effective additional prison term of 9.3 months; 3) imposing infinite fines; 4)
attempting a death penalty; 5) additional convictions; 6) forcing abandonment of legal
documents acquired and prepared while in custody! 7) forcing Mr. Verkler out of a job; 8)
forcing Mr. Verkler to give up other legal earned income; 9) making felony threats against
Mr. Verkler; 10) he would be denied court access or legal counsel. “Misrepresentation of
counsel, the district court and US” can “retract that plea” Chizen v Hunter. 561*3.
“The Supreme Court has recognized that a criminal defendant has a constitutional
right to "present his own witnesses to establish a defense." This right is an element of due
process of law guaranteed the defendant by the due process clause, Washington v.
Texas, also United Stales v, Henricksen this right was violated by stealing the subpoenas.
Mr. Verkler was denied access to the courts in violation of the 1st and 5th
Amendments. The courts violated Re Oliver. 273 by hiding court decisions and filings from
the Defendant and the public. The courts have refused to file motions on the docket that
they received. The courts openly refused to consider motions and briefs filed by the defense
and declare the defense has no right to access the courts. It has been established by the
court’s writings that they did not usually read what was presented to them. It is impossible
for the court to rule on the record when the vast majority of transcripts do not even exist!
And the 2 transcripts that exist have been proven to not be word for word violating US v
Taylor. Coughenour stipulated money was from State unemployment claims which proves
the federal court did not have jurisdiction and USA did not have standing.
USA must provide Mr. Verkler files taken from him, US v Weeks. 398. Denial of
discovery entitles the defendant to have the conviction and sentence set aside and vacated,
usa v verkler 2i-3uu»8

18

Cf. US v Bagiev. 682-83; Ferrara v US. over, 286, 289, 30th, 34th pg; Gouled v US. 313; Poe v
US. “[it] has the effect of misrepresenting the nonexistence of that evidence, US v Bagiev.
682-83) Ferrara v US. 34th pg; Mooney v Holohan. 103-4, 110'2; US v Chambers.
The right to assistance of legal counsel has been perverted into imposition of fraud
to leave a defendant no choice but to be found guilty. The Supreme Court, the circuit courts
recognize the right of a defendant in a criminal case to have legal counsel in such a case,
US v Mala. US v Duarte-Higareda. But the Ninth Circuit denies all Mr. Verkler’s rights in
this case, and: 15-30244, 16-30001,17-30237, 18*30073, and 20*30161. The district
commonly denies counsel. Coughenour denied legal counsel for several filings before and
including the habeas corpus, objections, summary judgment and default judgment.
“A court’s refusal to substitute counsel is presumptively prejudicial and requires
reversal because it constitutes the constructive denial of counsel. US v Velazquez. 1034; US
v Neuven. 1005; see also US v Gonzalez-Lonez. 150 ("... deprivation of the right to
counsel... unquestionably qualifies as ‘structural error.”’ (internal citation omitted).” St of
WA v Delila Reid. "The deprivation of the right to counsel... can never be treated as
harmless error." Frazer v US; Ronev v US; Shepherd v US; Green v US; US v Maxwell.
The imposition of multiple punishments beyond the sentence violates the
Double Jeopardy clause. As does prosecuting a person after being established not
guilty by adjudication on the merits, FRCP 41, and after the matters were dismissed
with prejudice, US v Clvmer. 831-833; US v Miller. 194, 198, 199; Commonwealth v
Cronk. 198, is unconstitutional under the Double Jeopardy clause; even when “the
conviction was entered pursuant to a counseled plea of guilty” Menna v NY. sum, 62;
Blackledee v Perry. 24, 30; Mevers v US. 380; Mansolilli v ITS. 43. Because the
State already found Mr. Verkler guilty of these charges (WAC: 192-100-060, 192USAWerkler 21-30098

19

220-020,192-110*150 andRCW: 50.20.070, 9.35.020, 9.38.020, 50.36.010, 50.04-310)
without- any due process, evidence, a trial, without an attorney before USA accused
Mr. Verkler, The federal government cannot again find Mr. Verkler guilty of the
same false charges and impose another set of punishments for the same thing. Mr.
Verkler could not appeal the State conviction because USA kidnapped Mr. Verkler.
For USA to seize funds that the sentencing court did not order is a clear double
jeopardy violation and not allowed under the Preamble. The 5th Amendment also states
property cannot be taken without due process of law* To decide to take more property
without notice and without regard to any evidence and without allowing the Defendant to
present his case and without a trial, an hearing or court order and when they take money
they do it off the record and keep the money rather than turning it in means they are not
impartial and are committed theft and embezzlement under color of law.
USA and the courts have set themselves on a course that indicates they are
imposing an infinite amount as a fine without an hearing, court order or due process of law,
Timbs v IN. Mr. Verifier's withdraw of the guilty plea took place before the court-imposed
sentence and the Defendant did show fair and just reasons for the withdrawal USA and
the court also unjustly took property without just compensation. The 5th Amendment, 18
USC § 880,18 USC 1341 and the plea contract require USA and the court to give credit to
Mr. Verkler for what they collect. They do not give credit for much of what they collected
even after stipulating an amount was collected then will deny it.
On 10/16/14 USA stipulated they collected $50,209 in gold and diamond, they also
collected all of Mr. Verifier's silver and cars but still have not detailed how much they got
(Exhibits: F, P pll,25, E, AM). USA collected multiple times the restitution before that
(Exhibits: 1A, IB, 1C, ID, IE, IF, 1G, 133) USA had collected more money since (Exhibits:
USA v Verkler 21-30098

20

U, AM, BA). On 1/12/21 USA, probation and judge Coughenour to! 3} and Thomas Coo to
use extortion to force Mr. Verkler to pay more is a felony under 18 USC 880J 2) not give
credit for funds collected and take more money than agreed in the Plea Contract and
ordered by the sentencing court constitutes unjust excessive illegal fines and to threaten
illegal criminal prosecution constitutes extortionate extension of credit 18 USC 892, 894.
Refusal of USA, probation and the court to give credit for payments made also proves
breach of contract and Mr. Verlder has the right to reject the whole deal, 28 USC 3308,
UCC §. 2*601, Kineslev. So, the Defendant can rescind the Plea Contract for USA's breach
of contract. Once USA stipulates receiving funds, they cannot deny it. The Defendant can
rescind the Plea Contract for USA’s fraud because USA lied about limiting the restitution
to the amount ordered by the court, and USA lies about the amount they received.
The US Constitution indicates there is a right to appeal and make collateral attack
and win, but the courts have perverted it into a guarantee for the defendant to be convicted.
By authorizing Congress to establish courts inferior to the Supreme Court and the 5Ul
Amendment’s requirement of due process means that if the original court violates due
process then a defendant must have the right to appeal FRAP 8,4 grants appeal as a right.
In the so-called mandate. There is no certified copy of the judgment and is no
opinion. If Appeal court does not specifically address an issue can still include it in habeas,
Johnson v Renico. 706, see

1,1140. There is no statement about costs.

The mandate was filed without a ruling on the En Banc appeal The order is not legal The
Ninth Circuit denied fcliat Mr. Verkler has a right to counsel and appeal violating FRAP 3,
4, 44 and stated they will not.ontertain filings in this case.
"Petitioner is entitled to relief under 28 USC 2255 on. showing simple deprivation of
his right to appeal..." Rodriquez v US;"... wrongfully denied” Dovle v US. Mr. Verklor
USA v Verkler 21-30098

21

proved the court must rule in his favor. Since the trial judge failed to protect the
defendant's rights adequately, the defendant has recourse to appellate review.
"It was permissible not to challenge sufficiency of indictment until appeal since
indictment omitted essential element of offense and thereby became so defective for which
defendant was convicted” US v Camp; Hambing v US. 117J US v Cunningham.
First, the court stated, "Date Rec’d COA- 06/18/2020” so with a COA the court must
proceed. Second, the court over looked that Mr. Verkler filed his habeas corpus under 28
USC 2265 so there is no requirement for Mr. Verkler to get a certificate of appealability
under 2256(d), but it does grant the right to appeal. 28 USC 2255 is more current than 28
USC 2263 so 2255 supersedes 2253. 28 USC 2253(a) allows an appeal for a case like Mr.
Verkler’s. Under the Rules Governing Section 2255 Proceeding for the US District Court
ll.(a) the court is to direct parties to submit arguments if the court should issue a
certificate of appealability per 28 USC 2253(c)(2) because of a denial of a constitutional
right several rights were violated. USA never submitted anything against a certificate of
appealability so there is no controversy for a judge to rule against Mr. Verkler per US
Constitution Article III Section 2. The court cannot require a certificate of appealability.
The court over looked the fact that USA did not respond to Mr. Verkler’s habeas
corpus. Mr. Verkler made 14 written requests for a copy of their 2255 response but USA
did not respond. Mr. Verkler made 7 written requests to the district court without a
response. 28 USC 2250 requires the court to provide a copy of USA’s response so failure to
provide a copy means the co\irt breaks the law or it did not have a copy of USA’s response.
On the eighth request the court clerk stipulated in writing that USA’s response and many
other documents (Exhibit AF). By prosecuting Mr. Verkler after judges dismissed the
matter with prejudice, Mr. Verkler has the right to appeal, FRAP 3, 4, Abnev v US.
USA v Verkler 21-30098

22

The court over looked that the district court had no basis to rule against any ground
Mr. Verkler presented and the court’s decisions had no merit. The court never ruled on
several grounds presented in Mr. Verkler’s habeas corpus. The court never ruled on
grounds- 4) the circuit did not allow Mr. Verkler to have legal counsel on appeal* 17) the
appellate court did not conduct an examination of the case; 19) cumulative error; 20) Mr.
Verkler was not indicted nor charged; 21) USA proved that Mr. Verkler’s signature was
forged on the plea agreement; 22) the court found Mr. Verlder guilty and sentenced him
without a trial, without a guilty plea, without a nolo contender plea, without charges
(Exhibits G, J), without an hearing, without any evidence (Exhibit J), after USA stipulated
in wilting to the court that they knowingly and deliberately violated the Speedy Trial Act
(Exhibit X) (p2 #5b should say there are NO transcripts), after 2 judges on the case under 2
different case numbers dismissed the matter with prejudice based on 2 habeas corpus
(Exhibits H, AH), after Mr. Verkler was established not guilty by adjudication on the merits
(Exhibit K) FRCP 41 says it applies to "any federakor state-court action" and USA
stipulated that FRCP 41 applies to this case. The judge never ruled on many aspects, parts
of several other grounds. The courts wrongfully refuse to address the issues.
Mr. Verkler is entitled to an impartial judge according to 28 USC sec 455, 1346;
Goldberg v Kelly? McNabb v US. 347; In re Murchison; Glasser v US. 72J HallidavvUS;
United Retail and Wholesale Employees Teamsters Union Local No. 115 Pension Plan v
Yahn and McDonnell. Inc, 138. Instead, judges have become more dedicated to prosecuting
a defendant than the prosecutors. The Goldberg Court said the state must provide a
hearing before an impartial judicial officer, the right to an attorney's help, the right to
present evidence and argument orally, the chance to examine all materials, to witnesses, or
a decision limited to the record thus made and explained in an opinion, A defendant has...
USA v Verkler 21-30098

23

"the right to an unbiased decisionmaker," see Board of Educ. v. Rice; H. WADE,
ADMINISTRATIVE LAW 171-218 (3d ed. 1971); Rex v. University of Cambridge.
The judge’s actions as a prosecutor, thefts, other crimes, violations of the
Constitution and Supreme Law prove he is not impartial. It was illegal to predetermine
Mr. Verkler’s case, 18 USC 1346; US v Cross. “ ‘if someone is deprived of his right to an
impartial tribunal, then he denied his constitutional right to due process,...” United Retail
and Wholesale Employees Teamsters Union Local No. 115 Pension Plan v Yahn. ?. 145.
147-81 and McDonnell. Inc. US v Cross; Great Western Mining and Material Co v Fox
Rothfldhild LLP; Nesses v Shepard. 1005; Marshall v Jerrico. Inc.. 242.
The Constitution and Law establish a defendant’s right to an hearing. It is often
violated in favor of false entries in the docket or prearranged decisions without any input or
consent from the defendant and behind his back. In an ordinary case a citizen has a right
to a hearing to contest the forfeiture of properly, a right secured by the Due Process Clause.
“Very notion of hearing, connotes that decision maker will listen to arguments of
both sides before basing decision on evidence and legal rules adduced at hearing.”
Billington v Underwood; Goldberg v Kelly. 267-8, 271; In re Murchison; Dunn v US. 107.
This has not been done in Mr. Verkler’s case. The district court and the ninth circuit
believe and practice that a person can be found guilty and sentenced without an hearing
and without evidence, without charges, without a trial, and without a guilty or nolo
contender plea even after the Defendant won several times over (Exhibits: P p3-8,15“
6,18,21-2,57,59,88,93-4,103-5,107-21,123-136,138-141,144,146-7,151,173-4,176, AF,AR).
The Supreme Court shows a resximption of the trend toward greater and greater
insistence on hearings. North Ga. Finishing. Inc, v. DrChem, Inc.. 723; In Goss v. Lopez
the Supreme Court pushed the requirement of "some kind of hearing", “...court must take
USA vVerkler 21-30098

24

defendant’s allegations as true...” Mack v US. "[A] hearing... demands that he who is
entitled to it shall have the right to support his allegations by argument,... and, if need be,
by proof...Londoner v, Denver. 386; Joint Anti-Fascist Refugee Committee v. McGrath.
171-2; Wolff v. McDonnell. 657-8. “...contention that [defendant’s] allegations are
improbable and unbelievable cannot serve to deny him an opportunity to support, them by
evidence” Walker v Johnston. 287; Machibroda v US. 495; "...the denial of that right is a
controversy.1’ Willner v. Committee on Character. 102.
Breach of contract was committed by USA and proved by Mr. Verkler; he was to
receive credit towards restitution for amounts collected, a limit on punishments and
forfeitures and abandonment and stipulated, then denied amounts collected, felony
convictions without felony charges and imposed extra prison time, an attempted death
penalty, additional DU1 convictions, extra abandonment of legal files acquired in prison,
threats, sabotage of earnings (Exhibits: E, J, S, U, AK, AM, AN, AT, BA, BF).
It is an abuse of discretion to apply tbe wrong legal standard, US v Ruiz. 1033. The
US courts commit a lot of abuse, as was the denial of Mr. Verkler's filings.
According to FRCrP 1(a)(1) the rules govern all criminal proceedings in all US
courts. To apply a different standard in order to commit a crime against a defendant is not
allowed. The higher court needs to overturn the illegal lower court decisions. “The burden
always remains with the government” US v Dozier. #100.
The courts overlooked that the district court violated discretion in nearly every
decision and it has violated the US Constitution and Supreme Law and Supreme Court
precedents and 9th and other Circuit Courts precedents in nearly every decision.
Coughenour frequently relies on non-existent cases, pages or laws or blatantly lies about
them, even saying the opposite. The 9th Circuit has the same problem. They do not
USA v Verkler 21-30098

25

consider the relevant record or what VerMer presented. They know much of the record is
wrong and even falsified it and stolen court records to the detriment of Verkler. They had
no authority to make a ruling against Verkler because it has been established beyond any
reasonable doubt: l) Coughenour is not impartial 28 USC 455, Goldberg v Kelly; Hallidav v
US? 2) the fed. courts never had jurisdiction to prosecute a case against Mr. Verkler,
(Exhibit Pp75,77-79,81-84,92,130-2,142-3,149,158-61,163,170,176-8, Obj to Probat. Ruling
p 30, Suppl Open. Brief p 4; 3) USA never had standing to bring a case against Verkler,
(Exhibit P plO,80,85-6,125-136,149,158,161,170-1, Obj to Probat. Rul. p 30)? 4) Mr. Verkler
was not allowed effective counsel in district court and no counsel for several filings and his
habeas corpus (Exhibits: P p8,10,12,14,21,25,31,34,41-7,52,55-61,76,89,94,109,116, 120,1423,145-6,149,151-2,154-5,160-1,163-5,172-8,180-3, Y, AF, AZ); 5) Mr. Verkler was not
allowed counsel for appeals 15-30244, 16-30001, 17-30237, 18-30073, 20 30161, 20-35559
there is a jurisdictional bar that forbids the court to rule against Mr. Verkler per Johnson v
Zerbst. 464-465, the court still has not done its duty to rule in Mi*. Verkler’s favor for all
appeals? 6) Mr. Verkler’s right to a defense was violated? 7) courts violate due process and
abuse discretion? 8) Mr. Verkler’s actual innocence, (Obj to Probation Ruling p31)i 9) the
guilty plea was not voluntary and not knowingly made (Exhibits: P pll,19-20,28-9,34,37,46,
51-5,62,66-73,89-94,106-7,117,129,143,147,149-50,164-6,181, AR).? 10) illegal imprisonment;
11) fraudin the factum (Exhibit P p20-23,25,27,29,33*5,46,100,147,156-7,171-2,176)? 12)
breach of contract by USA (Exhibit P p22-9,34-7,53,144, 147,149,156,162, 166-9,171-3,175)?
13) Speedy Trial Act violations (Exhibits: H, P pl5-20, 35,37-8,145,150-1,159,167,174,1.79
AH)? 14) prosecutorial misconduct (Exhibit P p6,10-2,15-9,21-2,26-32,34, 37-8,49-61,64,6771,73,87-93,145-8,150,180-3, Q pl4, Obj. to Probation Ruling p31)? 16) the court refused to
rule on motions, Obj. to Probation Ruling p31? 16) failure of the court to state it was giving
credit for time served, 18 USC 3585 (Exhibit P pl47,161-2,168,175, AK); 17) there was no
USA v Verkler 21-30098

26

appeal waiver (Exhibit P p59,65,67-8,76, 107,142,144,148*9,152-8,160-1,163,165,168-9,1778,180*1,183, AY); 18) double jeopardy was violated (Exhibit H, K, P p27,147,157,165, AH);
19) the appellate court did not; conduct an examination of the case, the amended notice o£
appeal, read the sentence, read attorney Link’s motion to withdraw, Mr. Verkler’s notice to
dismiss Link past the caption, read any transcripts, Verkler’s filings, nor Verkler’s briefs;
20) Verkler was not charged with a crime, the court found him guilty and sentenced him to
(Exhibit P plO-3,17-9,21, 35,46,100-1,104,143,145,147,149, 151,1641 21) Mr. Verkler did not
sign a plea agreement so the courts cannot use it against him; 22) district court reported
Verkler was guilty without a trial, a guilty plea nor a nolo contendere plea (Exhibit AR,
Obj. to Probat. Ruling p32). The circuit court did not consider the issues. USA did not file
an answering brief for: appeals 15-30244, 16*30001, 17*30237, 18-30073, 20-30161, 2035559, so the court had to rule in Mr. Verkler’s favor. Court’s activities are a mockery of
justice, completely void of factual or legal basis. Coughenour acted outside legal authority
to commit felony crimes against Verkler (Exhibit P p9-13, 16,25,30-2,36,50,89, 108,139,144*
5,150-1,155,159,162, 167-8,174-5,179, AF, AL, AM, AR, AU, Obj. to Prob. Ruling p35).
The court and USA have violated the Preamble, Art. I Sec. 9, Art. Ill Sec. 2, 4th, 5th,
6th, 8th, 10th, 13th Amendments by imposing cruel and unusual punishment punishments
without charges, a trial, a guilty plea or a nolo contendere plea, all without a court order
and without due process of law that he was not sentenced to endure: l) punishing Mr.
Verkler twice with an additional prison term of 9.3 months; 2) attempting to impose a death
penalty! 3) imposing fines, Austin v US. 602-4, 609, 621-3; 4) putting additional counts on
Mr. Verkler’s record; 5) by forcing abandonment of legal papers and evidence obtained
while in prison (Exhibits: J, P p25,43, AK, AN, AR, AT, AU, and AW); 6) denying discovery
for legal proceedings; 7) denying court access; 8) denying legal counsel; 9) money stolen

USA v Verkler 21-30098

27

from the wages; 10) forcing him out of a job and other earned income; 11) not returning
property not included in forfeiture or abandonment; or 12) felony threats.
2/12/15 USA stipulated in writing in an official court document under oath they
knowingly and deliberately violated the Speedy Trial Act, and related Laws, yet not punished
per 18 USC 3162; US v Clvmer. 826I.-827, II. A. 829-833. Like Clymer Mr. Verkler was
subject to over 4 months pre-trial detention and Mr. Verkler effectively served a prison
sentence of nearly 5 years. The judges were right to likewise dismiss Mr. Verkler’s cases with
prejudice. USA stipulated first accusations made 10/14/14 and subject to continued detention
and stipulated made the rest of the accusations on 11/4/14 (Exhibit K p2, P pl5( 104, X), after
violating the Act (Exhibit P pl08-109,120,124), and then 2/19/15 the court found Mr. Verkler
guilty and sentenced him and later accepting an involuntary (Exhibit P p!9-20,28-29,34,37,6265,67,89, 91,94) and unknowingly guilty plea (Exhibit P pll,19-20,28-9,34,37,46,51-55,62,6673,89-94,106-107,117,129,143,149-50,164*6,181, AR, Suppl Reply Brief p 4). “The court has a
responsibility to insure the reality of voluntariness and understanding” Adkins v US; Bartlett
v US. 348. “The record if the proceedings must indicate with absolute certainty that the
accused was in a position so to act, and also it must leave no possible room for doubt that the
court evaluated and was satisfied that the accused was so acting at the time, Turner v US.
18 USC 4 makes it a felony for the judges, prosecutors and my attorneys to refuse to
report the crimes against Mr. Verkler it means Mr. Verkler has protection under the Law to
report to the court, Marburv v Madison. 163.
As the [Supreme! Court has repeatedly emphasized, was to confer upon the federal
courts the duty to accord a person prosecuted... every safeguard which the law accords ...”
Sinclair v US. 296-7; Watkins v US. 208; Sacher v US. 5771 Flaxer vUS. 161; Deutch v US.
471; Russell v US. 755. “... the substantial safeguards to those charged with... crimes
USA v Verkler 21-30098

28

cannot be eradicated.,..” Smith v US. 9; Russell v US. 763 n!3. USA violated 28 USC 645.
“The absence of an indictment is a jurisdictional defect which deprives the court of
its power to act. Such a jurisdictional defect cannot be waived by a defendant, even by a
plea of guilty." Smith v US, 101 also Ex carte Bain. 135 Ex parte Wilson. 429. The court
cannot properly rely on factors that are not in evidence, Reply Brief p 3. The lower court
cites US v Weber, which puts the burden of proof on the government. Clearly the burden of
proof in on USA and they have submitted no legal evidence, and never charged him, thus
violating due process, Gregory v Chicago, 112; Re Oliver, 273; Dunn v US.
In Mr. Verkler’s case the judge violated FRCP 11 only asked was, “Do you make
these decisions freely and voluntarily? Of course, he knew Mr. Verkler was denied pre-trial
release from the 8th Amendment, 18 USC 3142, and was not released upon USAs violation
of the 6th Amendment, Speedy Trial Act or when charges were dismissed or when Mr.
Verkler was kidnapped violating 18 USC 1201 and illegally held in custody over 90 days, 18
USC 3164, against his will without the beginning of trial and USA stipulated in writing on
several occasions multiple times per occasion that weekly unemployment claims were being
filed while Mr. Verkler was in custody which proves he could not be guilty and he won his
case because all the counts were already dismissed with prejudice, USA stipulated in
writing under oath it knowingly and deliberately violated the Speedy Trial Act, USA
voluntarily dismissed the matter 4 times so under FRCP 41 and stipulated in writing under
oath that FRCP 41 applies in this case so Mr. Verkler was not guilty by adjudication on the
merits. In the same hearing the attorney started to say, “Your honor, I don’t - a think this
is a knowing, intelligent and voluntary plea. Mr. Verkler reminded the attorney about
USA’s threats to kidnap and kill Mr. Verkler’s children. The attorney said, ‘Tour honor,
there is one matter. Mr. Verkler is concerned that the government may go after his
children,” Franze-Nakamura replied, “That is right. Ms. Shaw alerted me to this issue
USA v Verkler 21-30098

29

yesterday,” That is when he filed the Information. That means he filed the Information
when the threats overborn Mr. Verkler’s will. Threatening children or love ones is
unconstitutional, illegal and makes a plea involuntary, Guerra v Collins; Johnson v Renico.
709; also, Mallov vHogan. T, Cummings v US. 382. "... voluntariness must be established
beyond a reasonable doubt” Mullins vTTS: Shelton v US. 26; Machibroda v US. 493J Schautz
v Beto. 216, #7, 9 a conviction in the Federal courts, obtained in disregard of liberties
deemed fundamental by the Constitution, cannot stand.” Boyd v US; Weeks v US; Gouled v
US. 313; Agnello v US. 32; BvarsvUS; GrauvUS; McNabbvUS. ?, 343; US v Jackson;
Blackledge v Perrv. 28-9; US v Groves. 453; US v DeMarco. 1226; US v Oaks. 940.
A guilty plea "must not be extracted by any sort of threats or violence, nor obtained
by any direct or implied promises, however slight, nor by the exertion of any improper
influence, Mallov v Hogan. 7; Cummings v US. 382. "... voluntariness must be established
beyond a reasonable doubt" Mullins vTTS: Cummings v US.
v Johnston. 104; Shelton v US. 261 Kercheval v US. 223;

348; Walev
i, 493,

The “district court erred in allowing forfeitures where neither the indictments
[information or plea contract] mentioned or included [them]” US v Seifuddinl US v MishlaAldarondo. The district court ordered the forfeiture of Mr. Verkler’s iMac and allowed the
forfeiture of cash, legal papers and other files and other assets not included in them.
It can be seen that the original body mainly establishes how to set up the
government and tells what it can do. The US Constitution never gives anyone in the
government power or authority to assist or commit a crime or a tort, to lie or conspire
against any American person, Weeks v US. 383, 392. The 10th Amendment denies USA all
powers
Bovd v US. 617, 630, 6351 Byars v US. 32; Gouled v US. 298, 304; Weeks v US; Siverthome
USA vVerkler 21-30098

30

Lumber Co v US; US v Lefkowitz. 466'75 the Court ruled the amendments merge to expand
a person’s rights beyond what each amendment does on its own; Roe v Wade. 152 the Court
has recognized that the right to privacy goes beyond each individual amendments the Court
should recognize people in government cannot attempt to or commit a crime, a tort,
conspire or lie against an American. The 9th Amendment says people have rights not listed
in the other parts of the Constitution.
USA is forbidden to use threats or make a plea involuntary to force a guilty plea,
Machibroda v US. 487, 493, 496; Graham v Conner. 395; Somberger v City of Knoxville;
Giuffre v Brissell; Moore v Demnsev. 89-90; as was done in Mr. Verkler’s case (Exhibits' P
pl9*20,28-29,34,37,52-5,67,89-91,94,106-7,129,143,147,149-50,164*6,181, AR). The US Atty
lias a duty to refrain from improper methods to produce wrongful conviction. USA has a
constitutional duty to disclose to a defendant exculpatory evidence automatically, Albright
v Oliver. nl5; AZ v Youngblood. 55; Berger v US.79. 88; Bradv v MD. 87; Moore v Ill 794-5.
The court did not explain most the seriousness of the charges. The court did’ 1) not
call the charges felonies; 2) not say that USA could attempt to impose a death penalty or
attempted murder; 3) not say the government or court could put extra counts on Mr.
Verkler’s record for DUI’s, instead the court said USA could not put on extra charges! 4) not
say USA could impose on additional 9.3-month term of imprisonment beyond what was
sentenced, instead the judge said USA could ask for a maximum of a total of 4 years! 5) did
not say USA could repeatedly steal legal papers Mr. Verkler had while he was in custody,
there was no such forfeiture nor abandonment provision, the judge said USA had to follow
through with promise to return many files and papers, but they did not! 6) not say Mr.
Verkler could not get all discovery USA is required to provide by Law, "Willful concealment
of material facts has always been considered as evidence of guilt”, Ashcraft v Tennessee.
USA v Verkler 21-30098

31

278; Cummings v US. 380; Kvlos v Whitlev. 432; US v Strickland. 277, USA is guilty,
instead the judge states several specific files that USA still had to give Mr. Verkler, USA
did not,; 7) not say Mr. Verkler would not get credit for prior amounts collected, violating 18
USC 875, instead the judge said I would get credit for prior amounts collected violating 18
USC 1341; 8) not say Mr. Verkler would not get credit for amounts forfeited or collected
after the plea (violating 18 USC 643, 645, 646, 648), instead the judge said Mr. Verkler
would get credit towards restitution; 9) not say Mr. Verkler would not get hack property
taken by USA that was not forfeited or abandoned, instead the judge said Mr. Verkler’s
attorney could go through all the items taken and return everything not listed as forfeited
or abandoned; 10) not say Mr. Verkler would be denied future access to the court; 11) not
say Mr, Verkler could not get legal counsel in the future; 12) not say Mr. Verkler would
have to pay an infinite amount in fines even without a court order, instead the judge said
the maximum fine was $250,000 and the judge ordered no fine; 13) not say USA the court,
probation or a judge could make felony threats against to try to stop him from seeking relief
in the court; 14) not say they could make felony threats and conspire to force Mr. Verkler
out of his home so he would have to move too far away to keep his job and to earn other
income. It need not be established “that there was a formal agreement to conspire;
circumstantial evidence and reasonable inferences drawn there from concerning the
relationship of the parties, their overt acts, and the totality of their conduct may serve as
proof US v Kaczmarek. 1035; US v Cogwell; US v Whalev. 1476, 1477; IIS v Griffin 1118;
US v Mavo. 1088» US v Washington. 1153. Only slight evidence to prove that an individual
was a member of the conspiracy, US v Castillo. 353; US v Gironda. 12175 US v West. 685)
;USv
2, 148, 151. No direct evidence is needed, Glasaer v US. 80; US v Manton. 839. It is not
necessary to prove an overt act, US v Diaz. 79. There is plenty of evidence of USA guilt.
USA v Verkler 21-30098

32

The courts overlooked that in USA’s plea agreement and in USA’s Information, USA
stipulated Mr. Verkler did not steal nor purloin (Exhibits* I p 2,3, J p2,3). USA decided to
only accuse Mr. Verkler of converting government money. By definition that means USA
stipulated USA already owed the money to Mr. Verkler. To convert money was not even a
crime under federal law until 1948. In Washington State where USA stipulates the alleged
activity took place a conversion is a misdemeanor or a tort, only a civil matter it is not a
felony crime, Informal Reply Brief p 2. Under State Law the penalty for illegally collecting
unemployment benefits is to repay the benefits plus 15% and be ineligible to receive
benefits for a certain number of weeks. An indictment does not eradicate any deprivation of
constitutional rights, US v King. 776, and Mr. Verkler was not indicted or charged.
It was proven* the lawyers, judges, magistrates, prosecutors, prison staff, clerks,
court, employees, tax collectors (also- police, sheriffs, Director of Business License Bureau,
marshals, secret service agents, custom officials, Department of Agriculture officers,
political enemies, politicians and their employees, lobbyists, financial analyst, or any public
official, any individual in the public sector or any entity in the public sector, Office of the
Governor, even entire departments, courts, municipality, utility or corporation) in Mr.
Verkler’s case they cannot be allowed to- commit a crime or conspiracy, a tort or lie likekidnapping, illegal gun use, delay in arraignment or in trial, indefinite detainment,
punishment prior to judgment of conviction, false conviction, false imprisonment, attempted
murder, subterfuge, pretext, lying, filing false income tax forms, RICO, extortion, force an
involuntary guilty plea, threats not even against loved ones, a shakedown, theft of
documents, theft, robbery, enslavement, conversion, to harm, failure to do duty to use all
lawful means to prevent injury, collect unlawful debt, embezzlement, skim money, swindle,
receipt or possession of stolen goods, corruption, scheme or artifice to defraud, or for
USA v Verkler 21-30098

33

obtaining money or property by means of false or fraudulent pretenses, representations, or
promises, untoward blandishments, obstruction of the enforcement of criminal law,
obstruction of justice, unauthorized exercise of power, exceeding official power, violating a
law relating to office, cover-up, mutilate or conceal files, false statements in court, perjury,
withholding evidence, falsifying evidence, skullduggery, planting evidence, tax fraud,
falsifying documents, falsifying the docket, fabricating stories or evidence, forgery, inducing
a witness to testify falsely, intimating a witness, witness tampering, depriving of honest or
faithful of government services, various types of governmental interference that deprive the
defendant of the right to witnesses, deprivation of rights, fraud, dishonesty,
misrepresentation (including unfulfilled or unfulfillable promises), refusal to due one’s
duty, under color of official right, or any crime under color of law, to sell, dispose of, alter,
give away, for the purpose of executing such scheme or artifice or attempting so to do, or
perhaps by promises that are by their nature improper, conspiracy, and no claim that a
statement was obtained without coercion or accurately recorded and relevant can make it
admissible and it is on overriding concern that effective sanctions be imposed against illegal
arrest and detention as was done against Mr. Verkler (also cannot- bribe, attempt to
illegally solicit, blackmail, third degree, road rage, assault, battery, murder, torture,
promises to discontinue improper harassment, fabricated evidence, false or misleading
testimony, no claim that a statement was obtained without coercion or accurately recorded
and relevant can make it admissible and it is on overriding concern that effective sanctions
be imposed against illegal arrest and detention, punishment prior to judgment of
conviction, a shakedown, use of the spoils system, kickbacks, payoffs, or to sell, dispose of,
loan, exchange, distribute, supply, or furnish or procure for unlawful use any counterfeit or
spurious coin, obligation, security, or other article, sexual favors, prostitution, drug crimes,
illegally gamble, mail fraud, wire fraud, or anything represented to be or intimated or held
USA v Verkler 21-30098

34

out to be such counterfeit or spurious article, for the purpose of executing such scheme or
artifice or attempting so to do) and they should get a more severe punishment and citizens
have a right to good government, Brady v Maryland. 86, 87; Bradv v US. 755; Brown v
Miss,, 281-7; Bynum v US. 466-7; Carpenter v US. 571, 572; CorlevvUS. 309; Cote v US.
793; Ginoza v US. outcome; Govt of Virgin Is v Solis. 620-11 Miranda v AZ, 447; Nap us v
Illinois, 269, 271-2; USy Jernigan, 1213-4; US v Margiotta. 132-3, #1,2,4,5,8-10,84; US v
Mayes, outcome; US v Middleton, overview; US v Mitchell. 67, 70, 88; US v MoraW
outcome, 851-3; US v Osunde, overview, 173, 175-7, ?; US v Sotoi-Lopezi Upshaw v US. 413,
summary; McNabb v US. 344; US v Roth, 1383, 1386; Branion v Gramlv; US v LeFevour.
979; US v Devine? US v Connecticut; US v Murphy. 1525-8; Salinas v US. 63-5; US v
Nardeilo. 286-9; US v Ruiz, 508, 3, 39, 40, 154-5! USvAngelilli. 30-5, #1-2; US v Bacheler.
450, #1,2,35! US v Frumento, M092, #2; US v Mazzei.643-4. #1, 17, 37; United States v.
Twigg. 381! US v Altomare, 7-8; US v Baker. #1, 9; US v Long. 241-2, #1,2,21! Shelton v
US, 572 n2; US_v Brown. 262; US v Dozier. 543 n8, #1-14, 16, 32, 114-5; US v Hathaway.
393; US v Hammond. 1012-3; Webb v Texas. 95; US v Heller. 152-3; US v Wright; US v
Dischner, 1611, 1515 n 15, #2-5,8,21,26,

1, 85! Marrow v US; US v

Whalen, 1348; US v Olinger! US v Guest. 7451 Wilkins v US; US v Ehrlich man I US v
Jacquermain; US v Romero! US v McFall. posture! US v Bvrne! 18-20! US v Ronda; US v
Vega! US v Ferreira, 51! US v Black! Wolfish v Levi. 118; Cupit v Jones! Matzker v Hen;
Duran v Elrod! Green v Baron! Johnson-El v George! Villsmieva v George! Berry v
Muskogee! Sampson v Schench; Sutton v US; US v Lefkowitz. 464; Taelavore v US. 265;
Warren v Lincoln; Ferrara v US. 26thpgl Missouri v Blair! US v Partida. 562, #2,83,89: US
£ Welch, 1039-47, 1057, 1059, 1060, 1062, 1064-5, 1067-70, 1,A,C,D,III A,1,C,1,D,1,2 (5*
Cir 1981); US v Siviis. 596, #2,23,73; US v Thompson. 998-1000, #2,39,45,53-6, 69; US v
Grzywacz, 686-7, 690, #1-10,12-20,22-25,29,36; US v Hocking. 769, 777! US v Lee Stellar
USA v Verkler 21-30098

35

Enterprises. Inc.. 1317-9, 1-4,10, 12; US v Masters; US v Rindone. 491, 494-5; US v
Schmidt, posture, 830-2; US v Sham all, overview, 451*2, 455, 457-9; US v Jacquemain; US
v Clark. 1261-7, #3,4,28; USvBordallo. #1.3-6.8.27.45.50; US v Egan.#2.18; US v Gates.
#1-2, 34*5, 38; Diaz v Gates. #1,2, 22, 26; US v Ohlson. 1349, #2. 9; US v Graham. #1,8; US
v Cross. 810-3; Nesses v Shepard. 1005; Commonwealth v Iiine. 573 (“The court noted that
is sees a 'ton of police misconduct cases’ and many police officers that had come before the
court had long records of citizen complaints”) US v Carson, posture, 570*2, 590*’ US v
Townqepd; US v Zwick. 685* Sutton v US "... those who commit crimes themselves cannot
prosecute other’s crimes.” see US v Blackwood. 134*6, #2,3,7,60; US v Holzer. 305*7, 310;
US v Rabbitt. 1019-21,1026. For USA to lie is plain error, US v Lane. 1399. “Case must be
remanded for full consideration of delay between defendant’s arrest and his appearance
before magistrate...” US v Keeble. The Sixth Amendment says the ability of the
government is not to commit crimes, torts or lie against Americans under the guise of
fighting crime. Mr. Verkler kept telling judges, attorneys and officers of USA’s kidnapping
of him and they went along with keeping Mr. Verkler in detention which also makes them
guilty, US v BroadwelL 602; Graham v Conner. 395. Officers are not protected from false
statements in future prosecutions for crimes such as penury and obstruction of justice. The
government does not need to prove any state of mind with respect to the circumstances that
the judge or law enforcement officer is an officer or employee of the Federal Government.
US v Veal overview, 1233, 1248,

>. "... There are a multitude of cases

in which prison administrators have been prosecuted under USC 241 and 242...” US v
Guadalupe; see US v Tines. 893J US v Vaden. 781; US v Bieham. 944;
.. defendant is bound by all acts of other co*conspirators that occurred during the
conspiracy, even if those acts were unknown to the defendant.” US v Broadweli. 602 and do
not need to know the others in the conspiracy US v Wilson. 1253; US v Andrews. 1496; US v
USA v Verkler 21-30098

36

Holloway. 679) US v Scrushv. 468) As in Re Oliver. 273 the courts decided to keep secrets
from the public. "... it was not necessary to prove that they knew their conduct was
unlawful. US v Reese) US v Barker) US v Brown. 415) US v Burchinal. 992, #28) US v
Winter. 1136) US v Cruz. 782*3) USvDeVmcent. 169) US v Torres Lopez. 624) USv
Angiulo. slip op at 14*15. “Uncharged acts [by government officers] may be admissible as
direct evidence of the conspiracy itself.” US v Diaz. 79) US v Castro) US v Matera. 121) US v
Meiia. 206*7) “The overt act... need not be itself a crime.” Bannon & Mulkev v US. 468, 469)
Joplin Mercandile Co. v US. 86) US v Rabinowich. 86) Pierce v US. 244) Braverman v US.
53. “18 USC 241 does not require that any overt act be shown” US v Morado) US v Skillmen)
US v Whitnev) US v Ellis) US v Bufalino) US v Cola. 1124) nor an overt agreement US v
Weiner. No direct evidence is needed, Glaaser v US. 80) US v Manton. 839) US v
Hinoiosa) only circumstantial evidence US v Zans. 1191) Jordan v US. 128) US v

members of the conspiracy...”

701) US v Feliziani. 1046)

a conspirator i9

liable for acts undertaken by a co-conspirator in furtherance of their conspiracy.” US v
Chambers. 913*4) US v Craig) US v Tonev. 1355)
... need not show that such an agreement was express) a conspiracy may be
implied from the circumstances.” Dickerson v US Steel Corp., 67^ If a party
has the potential to stop illegal activity but fails to act to do so, and sits idly
by, then that party may be said to have impliedly conspired in such
illegalities. ... it is not required to prove exact details of the agreement.” US
v Odiz ) USv Weilner...) US v Arians-Izauierdo...) US v Romero.... A
showing of conspirators rarely formulate their plans in ways suspectible of
proof by direct evidence. Crowe v Lucas. 993...) Hunt v Weatherbee) Gooch v
US) Fritts v US) Pinkerton v US. 640) Carpenter v US. 571, 572. Whoever
aids or abets a crime is punishable as the principle and if 2 people act in
concert, then the act of one is considered the act of the other, Gooch v US)
Fritts v US) Pinkerton v US) Carpenter v US)
In Mr. Verkler’s ca.se, court records were falsified by putting false entries on the
docket and removing true entries from the docket (violating 18 USC 1506, 2071, FRCrP 49)
USA Werkler 21-30098

37

stealing filed documents from the court records and dates of filings were falsified and the
order changed all to deny Mr. Verkler justice and due process and commit crimes against
him violating 18 USC 1506, 2071. The court ruled these acts are criminal and the clerk’s
conviction was upheld, US v Conn. 420-1, 423, 426; US v Baenariol. 893, #18; US v Twigg.
381. Also. US v DiSalvo. proc posture. 1211, 1244? US v Polizzi. 1548; US v Nakaladsld.
298; US v Natale. 1168-9; US v Sears. 587; Salinas v US. 63*5; US v Nguven. 1341.
a deputy clerk, Conn solicited and received money to influence public
officials in the performance of their official duties.” US v Conn. 421.
“Evidence of Conn’s guilt was overwhelming. ... there was documentary
evidence that Conn felsified court records.” US v Conn. 423.5... “He
accepted a bribe to manipulate the court calendar. He '‘pretried” cases before
judges to determine how defense counsel should proceed in given
circumstances” US vConn. 420-1, 425.
US v Bagnariol. saysThis egregious conduct on the part of government agents generated
new crimes by the [government] defendant merely for the sake of pressing
criminal charges against him when, as far as the record reveals, he was
lawfully and peacefully minding his own affairs. Fundamental fairness
does not permit us to countenance such actions by law enforcement officials
and prosecution for a crime so fomented by them will be barred. lUnited
States v. Twiggl.... extortionate means to collect a debt
Also. US v DiSalvo. US v Polizzi. US v Nakaladski, US v Natale. US v Sears.
Salinas v US. US v Nguven. 1341. USA violated 18 USC 876,
When USA sought to extort money and entrap Mr. Verkler (Exhibit BF).
At first Mr. Verkler refused, then US made the false charge of a probation
violation. Mr. Verkler filed to dismiss attorney Thomas Coe for refusing to work
on Mr. Verkler’s behalf and plotting to find Mr. Verkler guilty (violating 18 USC
3006A). Mr. Verkler filed to get subpoenas for several adverse witnesses. Paula
at the court house stated Coughenour refused to allow the attorney and subpoena
motions to be docketed and refuses to rule on them. That violates FRCrP 49(b)(5),
USA v Verkler 21-30098

38

18 USC 1506,18 USC 2071 that requires everything received by the court to be
docketed and forbids theft of the documents. I called again because 1 got no
response from my request for discovery sent in 3/2/21 (violating FRCrP 16). Paula
said she received it and routed it to the attorney. It means Coughexxour, Paula and
others deliberately commit the felony crime of theft of court records from the court
files and money collected by the court and USA in violation of 18 USC 643,18
USC 645, 18 USC 648, 18 USC 646,18 USC 872, 18 USC 875, 18 USC 876,18
USC 1506,18 USC 2071. This means she stipulated that Coughenour is
knowingly and deliberately falsifying the docket by stealing/deleting entries from
the docket. The reasons for accusation that Mr. Verkler did not pay what the
court ordered was to entrap Mr. Verkler and force the payment of more money by
extortion (violating 18 USC 872, 880, 892, 1961) and there was a conspiracy to
forge Mr. Verkler’s signature on a document that would claim he gave up rights
and promised to pay more money and falsely admit amounts were still owed.
Paula still refused to allow Mr. Verkler to have the Zoom information or phone
number to contact the court for the upcoming hearing on 3/31/21. This is a
blatant due process violation.
In the 2-l5'cr00041-J(XM docket it shows 8/31/21 was to be an evidentiary hearing
in 1/29/21 dkt# 169, 2/1/21 dkt# 161, 2/10/21 dkt# 163, 3/17/21 dkt# 164. There was no
evidence presented in the hearing. USA had already conceded not to seek a guilty finding.
Mr. Verkler had already produced tremendous evidence that multiple times the court
ordered payments were made (Exhibits 1A, IB, 1C, ID, IE, IF, 1G, 1H, II, E, F, P
p2fll,25,86,145,168,169, U, AM, BA), There is not transcript available, this is enough
grounds to reverse the conviction. It was impossible for the judge Coughenour to legally
find Mr. Verkler guilty.
USA v Verkler 21-30098

39

CONCLUSION

There are many categories of reasons to rule in George Verifier’s favor. These
categories each have multiple reasons to rule in Mr. Verifier’s favor. Any one of these
reasons alone would be enough to rule in George Verifier’s favor.
It is important to rule in George Verkler’s favor especially the last issue that* the
government and no one in it has the right, authority or power to assist or commit a
crime, a tort, to conspire or lie against any American person. The fate of America is
riding on your decision. Without such violations there would be no case.
It does not matter whether a person looks at opinions with judges with the
original founding father, or opinions with current judges or anywhere in between or look
at Supreme Court or any Circuit Court or other courts all published opinions favor
George Verkler. Once the court received the COA it cannot deny it and must proceed.
As bad as the district and circuits courts have been the Supreme Court should just
rule in favor of Mr. Verifier’s habeas corpus on all grounds and vacate the finding of guilt
for the probation violation.
Because USA did not argue against Mr. Verkler and everything is in his favor, he
is entitled to Summary Disposition under Rule 16.
The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:
USA v Verkler 21-30098

22Q/3~0^1
40

APPENDIX

:'

Ai orders

l

i

XVII

USA vVerkler 21-30098

Case2:17-cv-01876-JCC Documents Filed01/29/18 Page 1 of7

THE HONORABLE JOHN C. COUGHENOUR

1
2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7
8
9

GEORGE VERKLER,

10

Petitioner,

ORDER FOR SERVICE AND
ANSWER TO § 2255 PETITION

v.

II
12

CASE NO. C174876-JCC

UNITED STATES OF AMERICA,

13

Respondent.

14
15

This matter comes before the Court on Petitioner George Verifier's motion under 28

16 U.S.C. section 2255 to vacate, sot aside, or correct his sentence (Dkt No. 1). The Court, having
17 reviewed Petitioner’s motion, hereby DISMISSES Petitioner’s grounds one, four, five, six,
. 18 seven, nine, twelve, thirteen, fourteen, fifteen, sixteen, seventeen, eighteen, and nineteen and
19 ORDERS seivice and an answer on remaining grounds.
20

L

21

On August 4,2015, this Court sentenced Petitioner George Verifier (“Petitioner") to 48

Background

22 months in custody after he pled guilty to two counts of theft of public funds and two counts of
23 aggravated identity theft. (Dkt No. 1 at 1.) Petitioner appealed his conviction, and the Ninth
24 Circuit denied his appeals pursuant to the waiver ofhis right to appeal in his plea agreement.
25

United States v. Verklerf CRJ5-0041-JCC, Dkt, Nos, 17 at 15, 76 at 2. Petitioner subsequently

26 filed the present motion under section 2255, raising nineteen grounds for relief.
ORDER FOR SERVICE AND ANSWER TO & 2255
PETITION
C17-I876-JCC
PAf!R - 1
XVIll

USA vVerkler 21-30098

Case2:17-cv-01876~JCC Documents Filed01/29/18 Page2of7

n.
2

Grounds Dismissed

Section 2255 relief is warranted where a peti tioner shows that “the sentence was imposed

3

in violation of the Constitution or laws of the United States, or that the court was without

4

jurisdiction to impose such sentence, or that the sentence was in excess of the maximum

5

authorized by law, or is otherwise subject to collateral attack.” 28 U.S.C. § 2255(a). A hearing on

6

a section 2255 motion is not required if “the motion and the files and records of the case

7

conclusively show that the prisoner is entitled to no relief.” Id. § 2255(b). The Court finds that

8

the motion, files, and records of the case conclusively show that Petitioner is entitled to no relief

9

on grounds one, four, five, six, seven, nine, twelve, thirteen, fourteen, fifteen, sixteen, seventeen,

10

eighteen, and nineteen.

11

A. Grounds Waived by Plea Agreement

12

In his plea agreement, Petitioner waived “any right to bring a collateral attack against the

13

conviction and sentence, including any restitution order imposed, except as it may relate to the

14

effectiveness of legal representation.” CR15-0044-JCC,Dkt. No. 17 at 15. The Ninth Circuit has

15

upheld the enforceability of a knowing and voluntary waiver of the right to bring a collateral

16

attack for pre-plea constitutional violations. U.S. v. Abarca, 985 F.2d 1012,1014 (9th Cir. 1995).

17

However, such a waiver does not preclude a section 2255 claim for ineffective assistance of

18

counsel or involuntariness of wavier. Id. In addition, a waiver will not bar claims that challenge

19

the state’s power to bring petitioner into court or claims that are independent from the question

20

of guilt. See, e.gMenna v. New York, 423 U.S. 51, 62 (1975) (per curiam) (raising double

21

jeopardy claim on direct appeal); Jaurnigan v. Dujjy, 552 F.2d 283,288 (9th Cir. 1977)

22

(challenging an unconstitutional statute).

23
24

The Court thus finds that reliefbased on fee following grounds is ban*ed by fee terms of
Petitioner’s plea agreement: five (right to present a defense), six (violation of due process), seven

25
26
ORDER FOR SERVICE AND ANSWER TO § 2255
PETITION
C17-I876-JCC

USA v Verkler 21-300S[8

PAOR-7

xix

Case2:17-cv-01876-JCC Documents Filed01/29/18 Page3of7

1

(actual innocence), twelve (speedy trial act violation)1, thirteen (prosecutorial misconduct),

2

fifteen (failure to give credit for time served)2, sixteen/seventeen (improper dismissal of

3

appeals).3 These grounds at DISMISSED.

4

A. Grounds Otherwise Dismissed

5

Section 2255 claims not waived by plea agreement may be dismissed without a hearing

6

where “allegations, viewed against the record, either fail to state a claim for relief or are ‘so

7

palpably incredible or patently frivolous as to warrant summary dismissal.”' Marrow v. United

8

States, 772 F.2d 525,526 (9th Cir. 1985). On this basis, the Court dismisses the following

9

grounds:

10

1. Ground One: The Court Lacked Jurisdiction

11

Petitioner asserts the federal courts lacked jurisdiction to hew his case. (Diet. No. 1 at 4.)

12

This ground for relief appears to rest on Petitioner’s misapprehension of federal jurisdiction and

13

the function of the U.S. Attorney’s office.4 These allegations are patently frivolous and warrant

14

summary dismissal. See Marrow, 772 F,2d at 526. Furthermore, failure of counsel to raise the

15

issue ofjurisdiction does not constitute ineffective assistance of counsel. See Baumann v. United

16

States, 692 F.2d 565, 572 (9th Cir. 1982) (failure to raise a meritless legal argument does not

17

constitute ineffective assistance of counsel); (Dkt. No. 1 at 6). This ground is DISMISSED.

18

//

19
20
21
22
23
24
25
26

1 The Court notes that Petitioner stipulated to dismissal of the original complaint without prejudice after tho
Speedy Trial clock had ton. U.S. v, Verttcr, MJ14-0406-BAT, Dkt. Nos. 22,23.
2 To the extent that this ground attacks the execution of Petitioner's sentence rather than the imposition of
the sentence itself, this claim is not cognizable under 28 U.S.C. section 2255. Jt may be cognizable under 28 U.S.C.
section 2241, but such apetitionmust be brought in tho court that has jurisdiction over Petitioner or his custodian.
See Brown v, United States, 610 F.2d 672,677 (9tii Cir. 1980). This Court similarly lacks jurisdiction over
Petitioner’s other allegations against the Bureau of Prisons.
3 Petitioner argues these grounds together. Their dismissal does not preclude Petitioner’s challenges to tb©
validity of his pica agreement on other grounds not dismissed herein. See infra Section m.
4 Petitioner asserts that “the alleged orimes took place in the state of Washington," rather than a federal
jurisdiction, “state unemployment benefits do not come within the zone of interest of 18 U.S.C. § 641,” and U.S.
Attorneys with the tide of “esquire" are English nobles and cannot prosecute him on behalf of the United States,
(Dkt. No. 1 at 4,6.)
ORDER FOR SERVICE AND ANSWER TO § 2255
PETITION
C17-1876-JCC
PArtP-^

xx

USA vVerkler 21-30098

Case2:l7-cv«01876-JCC Documents Filed01/29/18 Page4of7

1
2

2. Ground Four: Denial of Attorney on Appeal
Petitioner complains that he was not provided an attorney to pursue his appeal or his

3

section 2255 petition. (Dkt. No. 1 at 9.) The records in this case conclusively show that Petitioner

4

is not entitled to relief on this basis. First, Petitioner waived his right to appeal pursuant to his

5

plea agreement CR15-0041-JCC, Dkt. No. 17 at 15. Second, he does not have a legal right to

6

counsel on his section 2255 petition. See US. v. McGee, 177 FApp’x. 550,551 (9th Cir. 1996).

1

This ground is DISMISSED.

8
9

3. Ground Nine: Illegal Imprisonment
Petitioner argues he was illegally imprisoned because he was not arrested pursuant to a

10

valid warrant and “no court ordered [him] to be held in custody.” (Dkt. No. 1 at 15.) The record

11

clearly contradicts these assertions. See Case No. CRI4-0041-JCC, Dkt Nos. 2,4,8, 10.

12

Furthermore, Petitioner waived a preliminary hearing, indictment, and his right to trial, ftirther

13

undermining his claims. See id. at Dltt. Nos. 12,14,17; (Dkt. No. 1 at 16). These claims are

14

patently frivolous. See Marrow, lit F.2d at 526. This ground is DISMISSED.

15

4. Ground Fourteen: The Court’s Refusal to Rule on Motions

16

Petitioner objects to "the [Court’s refusal} to rule on” motions. (Dkt, No. 1 at 32-33.) He

17

refers to a number of motions by date and name only, which do not appear in any case involving

18

Petitioner. See Case Nos. MJ14-0406-BAT, CR15-0041-JCC, MJ15-004-WPD. The Court

19

deuiad or declined to rule on other motions over which it had no jurisdiction or which were not

20

properly before the Court, and ruled on motions properly before it CR15-0041-JCC, Dkt. Nos.

21

44,49. Petitioner’s argument is based on his objection to the veracity of the contents of the

22

docket and records therein and is palpably incredible. See Marrow, 772 F.2d at 526.This ground

23

is DISMISSED.

24
25
26

5. Ground Eighteen: Nullity of Trial Court Orders/Double Jeopardy
Under the heading of "double jeopardy,” Petitioner argues that a number of this Court’s
post-judgment orders are "mill and void” becaase the Court relied on inapplicable "civil” statutes
ORDER FOR SERVICE AND ANSWER TO § 2255
PETITION
C17-1876-JCC

USAvVerkier 21-30098

PAOR-4
XXI

Case 2:17-cv-Q1876-JCC Document 5 Filed 01/29/18 Page 5 of 7

l

and case law and “make believe” rules. (Dkt. No. 1 at 36.) These claims are patently frivolous

2

and are based on a misunderstanding of the law cited. See Marrow, 772 F.2d at 526. They are not

3

grounds for collateral attack. See U.S. v. Addonizio, 442 U.S. 178 at 185 (1979) (error of law is

4

not a “basis for collateral attack unless it constituted ‘a fundamental defect which inherently

5

results in a complete miscarriage of justice’”).

6

Petitioner also asserts that the Government voluntarily dismissed charges against him

7

four times5, making his ultimate prosecution illegal. (Dkt. No. 1 at 36.) Federal law allows

8

dismissed charges to be refiled so long as the new charges comply with the Speedy Trial Act. See

9

U.S. v. Barraza-Lopez, 659 F.3d 1216,1219 (9th Cir. 2011). Charges underlying Petitioner’s

10

conviction complied with Speedy Trial requirements. Case No. CR14-0041-JCC, Dkt. Nos. 4,8,

11

10,17 (the complaint was filed on February 4,2018 and Petitioner pled guilty on February 20).

12

Finally, Petitioner argues that federal guidelines stepping up his recommended sentence

13

based on prior convictions violates the double jeopardy clause. (Dkt. No. 1 at 37). The Supreme

14

Court has long held that such consideration of prior convictions at sentencing is constitutional.

15

See Nichols v. US., 511 U.S. 738,747 (1994).

16

This ground is DISMISSED.

17
18

6. Ground Nineteen; Cumulative Error
Petitioner asserts that cumulative error in his case, reflected in the nineteen grounds for

19

reliefpresented herein, is the result of his extortion by former FBI Director Robert Mueller. (Dkt.

20

No. 1 at 37.) This allegation, when viewed against the record, fails to state a claim for relief and

21

is palpably incredible. See Marrow, 772 F.2d at 526. This ground is DISMISSED.

22

HI.

23

In accordance with the Supreme Court’s admonition to liberally construe pro se

24

Remaining Grounds

pleadings, the Court finds that the motions, files, and records of the case do not conclusively

25
26

3 The Court understands Petitioner as referring to several amended motions to dismiss an initial complaint
against him. CR14-0044-JCC, Dkt. Nos. 16,19,22.
ORDBR FOR SERVICE AND ANSWER TO § 2255
PETmON
C17-1B76-JCC
PArtP-S

xxn

USA vVerkler 21-30098

Case 2:17-cv-01876-JCC Documents Fifed01/29/18 Page 6of 7

1

show that Petitioner is entitled to no relief on remaining claims.6 See Eldridgev. Blocks 832 F.2d

2

1132,1137 (9th Cir. 1987) (citing Boagy. MctcDougall, 454 U.S, 364,365 (1982)); 28 U.S.C.

3

section 2255(a). Applicable only to remaining grounds two, three, eight, ten, and eleven, the

4

Court thus ORDERS as follows:

5

(1)

If not previously accomplished, electronic posting of this order and petition shall

6

effect service upon the United States Attorney of copies of the 2255 motion and of all documents

7

in support thereof.

8

(2)

Within forty-five days after such service, the United States shall file and serve an

9

Answer in accordance with Rule 5 of the Rules Governing Section 2255 Cases in United States

10

District Courts. As part of such Answer, the United States should state its position as to whether

11

an evidentiary hearing is necessary, whether there is any issue as to abuse or delay under Rule 9,

12

and whether petitioner’s motion is barred by the statute of limitations.

13

(3)

On the face of the Answer, the United States shall note the Answer for

14

consideration on the fourth Friday after it is filed, and the Clerk shall note the Answer

15

accordingly. Petitioner may file and serve a Reply to the Answer no later than that noting date.

16

(4)

17

All attorneys admitted to practice before this Court are required to file documents

Filing and Service by Parties Generally

18

electronically via the Court’s CM/ECF system. Counsel are directed to the Court’s website,

19

www.wawd.uscourts.gov, for a detailed description of the requirements for filing via CM/ECF.

20

All non-attorneys, such as pro se parties and/or prisoners, may continue to file a paper original of

21

any document for the Court’s consideration. A party filing a turner original does not need to file a

22

chambers copy. All filings, whether filed electronically or in traditional paper format, must

23

indicate in hie upper* right hand comer the name of the Judge to whom the document is directed.

24
25
26

8 While components of the remaining claims are not plausible, on fhe whole Petitioner states cognizable
claims.
ORDER FOR SERVICE AND ANSWER TO § 2255
PETITION
C17-1876-JCC
PAC.F-fi

xxin

USA vVerkler 21-30098

Case2:17-cv-01876“JCC Documents Filed01/29/18 Page7of7

1

For any party filing electronically, when the total of all pages of a filing exceeds fifty (50)

2

pages in length, a paper copy of the document (with tabs or other organizing aids as necessary)

3

shall be delivered to the Clerk’s Office for chambers. The chambers copy must be clearly marked

4

with the words “Courtesy Copy of Electronic Filing for Chambers.”

5
6
7

Additionally, any document filed with the Court must be accompanied by proof that it has
been served upon all parties that have entered a notice of appearance in the underlying matter.
DATED this 29th day of January 2018.

8

|)I. c c.

9
10

John C. Coughenour
UNITED STATES DISTRICT JUDGE

11
12

13
14
15
16

17
18
19
20

21
22
23
24

25
26
ORDER FOR SERVICE AND ANSWER TO § 2255
PETITION
C17-1876-JCC
PAfJR - 7

xxiv

USA v Verkler 21-30098

Case 2:17-cv-01876-JCC Document U Filed 06/07/18 Page 3. of 5

THE HONORABLE JOHN C. COUGHENOUR

1
2
*

3
A

5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7
8

9

CASE NO. C17-1876-JCC

GEORGE VERKLER,

10

Petitioner,

ORDER

v.

11

UNITED STATES OP AMERICA,

12
13

Respondent

14
This matter comes before fhe Court on Petitioner George Vender’s motion to vacate, set

15

aside, or oonecthis sentence under 28 U.S.C. section 2255 (Dkt. No. 1) and motion for summary
17 ! judgment (Dkt. No. 10). Having thoroughly considered the parti es’ briefing and die relevant
1C

18

record, the Court finds oral argument unnecessary and hereby DENIES Petitioner’s motions for

19

the reasons explained herein.

20

L

BACKGROUND

21

On August 4,2015, this Court sentenced Petitioner George Verkler (“Petitioned*) to 48

22

months in custody after he pled guilty to two counts of theft of public funds and two counts of

23

aggravated identity theft. (Diet. No. 1 at l.) The Ninth Circuit dismissed Petitioner’s direct appeal

24

based on the waiver included in his plea agreement United States v. Kcr/c/er, CR15-0041-JCC,

25

Diet. No. 17 at 15, Petitioner then filed a second appeal of various post-conviction motions,

26

which the Circuit Court dismissed in part as untimely and denied in part as meritless. Id, at 76 at
ORDBR
C17-1876-JCC
PAflR-1

USA v Verkler 21-30098

XXV

Case 2:17-cv-Gl876'JCC Document 11 Filed.06/07/18 Page a of 5

2, Petitioner subsequently filed this section 2255 motion, raising nineteen grounds tbr relief,
2

(Dkt, No. i.) Tbo Court dismissed fourteen grounds and ordered service and n response to the

3

remaining five. (Dlft. No. 5.)

4 U,

DISCUSSION

5

To state a cognizable section 2255 claim, ft petitioner must assert that he or she is in

6

custody in violation ofthe Constitution or laws of the United States» thatthe district count lacked

7

jurisdiction, that the sentence exceeded the maximum allowed by law, or that the sentence is

8

otherwise subject to collateral attack. 28 U.S.C. § 2255(a). A habeas petitioner bears the burden

9

of showing by a preponderance of the evidence that an error occurred. See Johnson v. Zerhst,

10 304 U.S. 458,468-69 (1938); Simmons v. Blodgett, 110 F.3d 39,41-42 (9th Cir. 1997); United
U

States v. Doriety, Case No. 016'^924-JCC, Dkt. No. 12 at 5-6 (W.D. Wash. 2016),

12

A.

Involuntary Plea (Ground Eight)

13

The Court will first address Petitioner’s contention that his guilty plea was not knowingly

14

and voluntarily made. (Dkti No. 1 at 14.) Petitioner raised this issue on appeal. (,5feeDkt No. 76

15

at 2.) The Ninth Circuit examined the underlying court records and rejected the claim, finding

!

16 “no arguable issue as to tho... voluntariness of the plea.” (Id.) Having received a “full and &ir
17

opportunity to litigate (this claim] on direct appeal,” Petitioner may not use it as a basis for his

38

section 2255 petition. United States v. Hayes,231 P.3d 1132,1139 (9th Ch‘. 2000); see also

19

United States v. Berry, 624 F,3d 1031, 1038 (9th Cir. 2010) (a 2255 petition is not “a chance at u

20

second appeal”). Petitioner is entitled to uo relief on this ground.

21

B.

22

Petitioner also argues breach of contract. (Dkt. No. I at 21.) He alleges his pica

23

Breach of Contract (Ground Eleven)

agreement is void because he received an excessive sentence for Counts 1 and 3, he was not

24 correctly credited amounts paid and seized toward restitution, and a number of seized items were
25

not returned to him. (Id, at 18-19.) These claims were also raised and denied on direct appeal.

26

United States v. Pfeifer, No. 16-30001, Dirt. No. 12-1 at 14-15 (9lh Cir. May 26,20.16) (raising
;

ORDER
C17-1876-JCC
VAflP - 0

USA vVerkler 21-30098

xxv i

Case 2:17-cv-01876-JCC Document 11 Filed 06/07/18 Page 3 of 5

1

the same claim); (Dirt. No. 77 at 1) (Ninth Circuit ruling finding the claim “so insubstantial as

2

not to require further argument”). Petitioner may not use this as a basis for his section 2255

3

petition. Hayes, 231 F.3d at 1139.1 He is entitled to no relief on this ground.

4

C.

5

Petitioner argues the United States lacked standing to bring charges against him, because

6

he did not steal federal fluids. (Diet. No. 1 at 7.) This claim too was raised and denied on appeal.

7

Verkler, No. 16-30001, Dkt. No. 12-1 at 13; (Dkt. No. 77 at 1). Therefore, it is not a basis for

8

section 2255 relief. Hayes, 231 F.3d at 1139.2

9
10

D.

Standing (Grounds Two)

Fraud in the Factum (Ground Ten)

Petitioner claims counsel led him to believe the charges against him for theft of public

11

fluids were misdemeanors. (Dkt. No. 1 at 16.) He argues that his resulting felony conviction

12

therefore constitutes fraud. (Id.) Again, Petitioner raises aprocedurally-barred issue, as it was

13

previously examined and denied on direct appeal No. 16-30001, Dkt. No. 12 at 26; (Dkt. No. 77

14

at 1); Hayes, 231 F.3dat 1139.3 Petitioner is not entitled to relief on this ground.

15

E.

Ineffective Assistance of Counsel (Ground Three)

16

Finally, Petitioner claims ineffective assistance of counsel.4 (Dkt. No. 1 at 7.) To

17
18
19
20
21
• 22
23
24
25
26

1 Petitioner also fails to establish a factual basis for his assertions. His sentence fell within
the range indicated in his plea agreement. (See Dkt, No. 17 at 2-3.) He presents no facts that
would call into question the calculation of his restitution obligation. (See id. at 4-5.) Finally,
Petitioner's own exhibits show that items seized were forfeited in the plea agreement, and the
Government complied with its agreement to allow defense counsel to review seized materials
and return certain documents and files to Petitioner. (Dkt Nos. 17 at 5,7,1-4 at 21-22.)
2 This claim also fails on the merits. Petitioner admitted in his plea agreement that “the
money [he converted] belonged to the United States.” (Dkt. No. 17 at 2,8.)
3 This claim is clearly contradicted by the record, Petitioner’s plea agreement states that
the maximum term of imprisonment for the crime of thefl of government funds is ten years. (Dirt.
No. 17 at 2.) During Petitioner’s change of plea hearing, the judge explicitly explained that this
crime was a felony. (Dkt. No. 9-2 at 12.) Petitioner acknowledged this faot and the consequences
of a felony conviction. (Id. at 13.)
4 Petitioner also alleges ineffective assistance of counsel in grounds eight and ten. (Dkt.
No. 1 at 15,18.)
ORDER
C17-1876-JCC
PA(1P-^
XXV|1

USA v Verkler 21-30098

Case 2:17-cv-01876-JCC Document 11 Filed 06/07/18 Page 4 of 5

1

establish ineffective assistance of counsel, a petitioner must show both that counsel’s

2

performance was objectively unreasonable and that the deficient performance prejudiced the

3

defense, Strickland v. Washington, 466 U,S. 668, 686 (1984). An attorney’s performance is

4

“objectively unreasonable” when “in light of all the circumstances, pier] acts or omissions [are]

5

outside the wide range of professionally competent assistance.” Id. at 690. A petitioner suffered

6

prejudice where he can establish a reasonable probability that, but for counsel’s unprofessional

7

errors, die result of the proceeding would have been different. Id. at 694.

8

Petitioner makes a number of complaints about the performance of each of his attorneys.

9

He states that he dismissed his first attorney “for 12 reasons,” and Ms next two “for 19 reasons,”

10

and raises a litany of more specific grievances about counsel who represented him at the plea,

11

sentencing, and appeal stages of his case. (See Dkt. No. 1 at 7-9,15.) However-, the Court will

12

not delve into the reasonableness of each specific allegation of error because Petitioner’s claim

13

clearly fails on the second prong of the Strickland test. See Stricldand, 466 U.S. at 697 (courts

14

may resolve ineffective assistance of Gounsel claims on the prejudice prong when able).

15

Petitioner wholly foils to make a showing of prejudice. His motion simply lists the act and

16

omissions that he feels his attorneys made in error and states that he was prejudiced. (See Dkt.

17

No. 1 at 7-9,15.) To succeed on his ineffective assistance of counsel claim, Petitioner must

18

establish a reasonable probability that his case would have had a different outcome if counsel

19

had not made the alleged errors. Strickland, 466 U.S. at 694. Petitioner's vague and conclusory

20

allegations are insufficient to make this showing. See Shah v. US., 878F.2d 1156,1161 (9th Cir.

21

1989). Petitioner is entitled to no relief on this ground.

22

F.

23.

The record before foe Court conclusively shows that Petitioner is entitled to no relief.

Evidentiary Hearing

24

Therefore, the Court concludes that holding an evidentiary hearing or seeking additional briefing

25

would serve no purpose, and Petitioner’s request for collateral relief should be denied without

26

conducting an evidentiary hearing. United States v. Quan, 789 F.2d 711,715 (9th Cir. 1986);
ORDER
C17-1876-JCC
IJ&HP -d
XXVlll

USA vVerkler 21-30098

Case 2:17-cv-01876-JCC Document 11 Filed 06/07/18 Page 5 of 5

1

United States v. Moore, 921 F.2d 207, 211 (9th Cir. 1990).

2

G.

3

A petitioner seeking collateral relief under § 2255 may appeal a district court’s dismissal

Certificate of Appealability

4

of the petition only after obtaining a certificate of appealability (“COA”) from a district or circuit

5

judge. A COA may be issued only where a petitioner has made “a substantial showing of the

6

denial of a constitutional right.” See 28 U.S.C. § 2253(c)(3). A prisoner satisfies this standard

7

<fby demonstrating that jurists of reason could disagree with the district court’s resolution of his

8

constitutional claims or that jurists could conclude the issues presented tire adequate to deserve

9

encouragement to proceed further.” MiUer-El v. Cockrell,537 U.S. 322,327 (2003). The Court

10

finds that no reasonable jurist would disagree that petitioner has failed to state a claim upon

11

which relief may be granted. A certificate of appealability is denied on all issues.

12

HI.

MOTION FOR SUMMARY JUDGMENT

13

Petitioner filed a self-titled motion for summary judgment on his 2255 petition (Dkt. No.

14

10). The motion asserts that the Government failed to respond to his petition within the allotted

15

time, and thus fhe Court must grant his petition on all issues. (Id. at 1.) Since the Government

16

did, in feet, timely respond (Dkt Nos. 7,9), and the Court has found the record conclusively

17

shows Petitioner is entitled to no relief, the Court DENIES Petitioner’s motion for summary

18

judgment (Diet No. 10).

19

IV.

CONCLUSION

20

For the foregoing reasons, Petitioner’s motion to correct, vacate, or set aside his

21

conviction (Dkt. No. 1) and motion for summary judgment (Dkt. No. 10) are DENIED.

22

DATED this 7th day of June 2018.

23

tc,

24
25

A/S.

John C. Coughenour
UNITED STATES DISTRICT JUDGE

26
ORDER
C17-1876-JCC
PAfSP-S
XXLX

USA v Verkler 21-30098

Case 2:l7-cv-01876-JCC Document 18 Filed 04/08/19 Page 1 of 2

THE HONORABLE JOHN C, COUGHENOUR

1
2
3
4

5
6
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7

8
9

GEORGE VERKLER,

10

Petitioner,

ORDER

v.

11

12

CASE NO. C17-1876-JCC

UNITED STATES OF AMERICA,

13

Respondent.

14
15

Tliis matter comes before the Court on Petitioner’s motion titled “objections to judge’s

16

illegal 2255 rulings and criminal acts and request for an impartial judge” (Diet. Nos. 16,17).

17

Having thoroughly considered Petitioner’s motion and the relevant record, the Court hereby

18

DENIES the motion for the reasons explained herein.

19

Petitioner’s motion appears to be an attempt to appeal the Court’s prior order denying his

20

§ 2255 petition. (See Dkt. Nos. 16,17.) However, because Petitioner cannot appeal that order

21

without a certificate of appealability, see 28 U.S.C. § 2253(c)(1)(B), the Court construes

22

Petitioner’s motion as an application for a certificate of appealability. A certificate of

23

appealability may issue only where a petitioner has made a “substantial showing of the denial of

24

a constitutional right.” 28 U.S.C. § 2253(cX2). This is satisfied “by demonstrating that jurists of

25

reason could disagree with the district court’s resolution ofhis constitutional claims or that

26 jurists could conclude the issues presented are adequate to deserve encouragement to proceed
ORDER
C17-1876-JCC
PARR - 1

XXX

USA vVerkler 21-30098

Case 2:17-cv-01876-JCC Document 18 Filed 04/08/19 Page 2 of 2

1

farther ” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The Court has already considered

2

whether Petitioner is entitled to a certificate of appealability and declined to grant one. (See Diet.

3

No. 11 at 5.) Therefore, Petitioner’s motion (Dkt. Nos. 16,17) is DENIED.

4

DATED this 8th day of April 2019.

5
6
7
John C. Coughenour
UNITED STATES DISTRICT JUDGE

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
ORDER
C174876-JCC
PAHP.?

XXXI

USA v Verkler 21-30098

Case 2:17-cv-01876-JCC Document 22 Filed 05/29/20 Page 1 of 2

THE HONORABLE JOHN C. COUGHENOUR

1
2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7
8
9
10
11
12

CASE NO. C17-1876-JCC

GEORGE VERKLER,
Petitioner,

MINUTE ORDER

v.
UNITED STATES OF AMERICA,

13

Respondent.

14

15
16
17

The following minute order is made by direction of the Court, the Honorable John C.
Coughenour, United States District Judge:
This matter comes before the Court on Petitioner’s motion for default judgment (Dkt. No.

18

21.) On August 4, 2015, the Court sentenced Petitioner to 48 months in custody after he pleaded

19

guilty to two counts of theft of public funds and two counts of aggravated identity theft. (Dkt.

20

No. 1 at 1.) The Ninth Circuit dismissed Petitioner’s direct appeal based on the waiver included

21

in his plea agreement United States v. Verkler, Case No. CR15-004NJCC, Dkt. Nos. 17 at 15

22

(W.D. Wash. 2015). Petitioner then filed a second appeal of the Court’s rulings on various post

23

conviction motions, which the Ninth Circuit dismissed in part as untimely and denied in part as

24

meritless. IdDkt. No. 76 at 2. Petitioner subsequently filed a § 2255 motion on December 14,

25

2017, raising nineteen grounds for relief. (Diet. No. 1.) The Court dismissed fourteen grounds

26

and ordered service and a response to the remaining five. (Dkt. No. 5.) After receiving the
MINUTE ORDER
C17-1876-JCC
PAGE-1

xxxn

USA v Verkler 21-30098

j

Case 2:17-cv-01876-JCC Document 22 Filed 05/29/20 Page 2 of 2

.

* r-.*

1

Government’s response, the Court dismissed Petitioner’s remaining five grounds for relief on

2

June 7,2018, and entered judgment against Petitioner on June 15,2018. (Dkt. Nos. 11-12.) Nine

3

months later, Petitioner tried to appeal the dismissal by filing amotion spanning 372 pages. (Dkt.

4

No. 16.) The Court explained that Petitioner could not appeal the dismissal without a certificate

5

of appealability. (Dkt. No. 18 at 1.) The Court therefore construed the appeal as an application

6

for a certificate of appealability, which the Court denied. {Id. at 1-2.)

7

Now, almost two years since the Court dismissed this action, Petitioner has again filed a

8

motion spanning hundreds of pages in which Petitioner rehashes many of the same arguments

9

that the Ninth Circuit and the Court have previously rejected. {See Dkt. No. 21 at 1-64.) The

10

Court rejects those arguments for the same reasons that it rejected them before. {See Dkt. No. 18

11

at 1-2.) The motion (Dkt. No. 21) is DENIED.

12

DATED this 29th day of May 2020.

13

William M. McCool
Clerk of Court

14
•

s/Tomas Hernandez
Deputy Clerk

15
16
17
18
19
20
21
22
23
24
25
26
MINUTE ORDER
C17-1876-JCC
PAGE - 2

xxxm

USA vVerkler 21-30098

Case 2:17-cv-01876-JCC Document 26 Filed 02/09/21 Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

FEB 9 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

20-35559

D.C. Nos.

2:17-cv-01876-JCC
2:15 -cr-00041 -JCC-1
Western District of Washington,
Seattle

v.

GEORGE VERKLER,
ORDER
Defendant-Appellant.
Before:

McKEOWN and BUMATAY, Circuit Judges.

The request for a certificate of appealability is denied because appellant has
not shown that “jurists of reason would find it debatable whether the [motion]
states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural
ruling.” Slack v. McDaniel 529 U.S. 473,484 (2000); see also 28 U.S.C.
§ 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Gonzalez v.
Crosby, 545 U.S. 524,530-31 (2005); Miller-El v. Cockrell, 537 U.S. 322, 327
(2003), Ortiz v. Stewart, 195 F.3d 520, 520-21 (9th Cir. 1999); United States v.
Winkles, 795 F.3d 1134, 1143 (9th Cir. 2015).
Any pending motions are denied as moot.
DENIED.

XXXIV

USA vVerkler 21-30098

UNITED STATES COURT OF APPEALS

FILED

FOR TOE NINTH CIRCUIT

MAR 5 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

20-35559

D.C. Nos.

2:17-cv-01876-JCC
2:15-cr-00041 -JCC-1
Western District of Washington,
Seattle

GEORGE VERKLER,
ORDER
Defendant-Appellant.
Before:

CANBY and VANDYKE, Circuit Judges.

Appellants motion for reconsideration (Docket Entry No. 10) is denied. See
9th Cir.R. 27-10.
No further filings will be entertained in this closed case.

CLERK, U.S. COURT OF APPEALS
FOR THE NINTH CIRCUIT
P.O. BOX 193939
SAN FRANCISCO, CA 94110-3939

;
/i.

OFFICIAL BUSINESS
PENAL1Y FOR PRIVATE USE $300

/*C.

/

X ^-'37:'xu3 ROOB

USA vVerkler 21-30098

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 13 2021.
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No.

UNITED STATES OF AMERICA,

D.C. No. 2:15-cr-00041-JCC-l
Western District of Washington,
Seattle

Plaintiff-Appellee,
v.

ORDER

GEORGE VERKLER,
-

21-30098

Defendant-Appellant.

A review of the record demonstrates that the district court imposed a timeserved sentence with no period of supervised release to follow. Because the
sentence imposed for-the supervised-release revocation is no longer in effect, it
appears that the court can provide no effective relief to appellant. See United
States v. King, 891 F.3d 868 (9th Cir. 2018) (appeal from revocation of supervised
release is moot upon completion of the sentence).
Accordingly, within 21 days of this order, appellant must move for voluntary
dismissal of the appeal or show cause why the appeal should not be dismissed as
moot. If appellant moves for voluntary dismissal, the motion must be
accompanied by appellant’s written consent or counsel’s explanation why
appellant’s consent was not obtained. See 9th Cir. R. 27-9.1.
If appellant elects to show cause, appellee may file a response within 10
days after service of appellant’s memorandum.
USA vVerkler 21-30098

XXXVI

If appellant does not comply with this order, the appeal may be dismissed
without further notice to appellant. See 9th Cir. R. 42-1.
Briefing is suspended pending further court order.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Karen Golinski
Deputy Clerk
Ninth Circuit Rule 27-7

2

XXXV11

21-30098

1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 27 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

21-30098

D.C. No. 2:15-cr~00041-JCC-l
Western District of Washington,
Seattle

y.

ORDER

GEORGE VERKLER,
Defendant-Appellant.

The motion of appellant’s appointed counsel, Thomas D. Coe, Esq., to
withdraw as counsel of record (Docket Entry No. 4) is granted.
The Clerk will enter on the docket George Verkler, 407 East Young Street,
Elma, WA 98541, as appearing pro se, pending resolution of the order to show
cause and motion for appointment of new counsel (Docket Entry No. 4).
Appellant’s pro se response to the order to show cause was filed on April
23, 2021. Appellee may file a reply to appellant’s response by May 3, 2021.
Briefing remains suspended. .
FOR THE COURT:
LisaB. Fitzgerald
Interim Appellate Commissioner
Ninth Circuit Rule 27-7

USA v Verkler 21-30098

XXXVIll

i

i

FILED

UNITED STATES COURT OF APPEALS

MAY 19 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 21-30098

UNITED STATES OF AMERICA,

D.C. No. 2:15-cr-00041-JCC-l
Western District of Washington,
Seattle

Plaintiff-Appellee,
v.

ORDER

GEORGE VERKLER,
Defendant-Appellant.

i

Before:

CANBY, FRIEDLAND, and VANDYKE, Circuit Judges.
!

Having reviewed appellant’s response to the court’s April 13, 2021, order,

i

we conclude that this appeal is moot because appellant has completed service of
his sentence and there is no effectual relief the court could grant. See Chafin v.
Chafin, 568 U.S. 165, 172 (2013); see also United States v. King, 891 F.3d 868
(9th Cir. 2018) (appeal from revocation of supervised release is moot upon
completion of the sentence). We, therefore, dismiss.
All pending motions are denied.
DISMISSED.

USA vVerkler 21-30098

XXXIX

?.

